           Inspector General of the
           Department of Defense

                   Vision

   “One Professional Team of Auditors,
 Inspectors, and Investigators, Inspiring by
     Paradigm a Culture of Integrity,
Accountability, and Intelligent Risk-Taking
  Throughout the Department of Defense”




                                                                                  Send written complaints to:
                                                                                  Defense Hotline, The Pentagon, Washington, D.C. 20301-1900
                                                                                  You may also contact us by phone at 800.424.9098
                                                                                  e-mail hotline@dodig.mil or www.dodig.mil/hotline



                                               To report fraud, waste, mismanagement, and abuse of authortiy within the Department of Defense
                                                               Semiannual Report for Transmission to Congress




              INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the specific pages in this semiannual report to the reporting
requirements prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended.

      IG Act
                                             Reporting Requirements                                         Page
    References
   Section 4(a)(2)    “review existing and proposed legislation and regulations…make                        36-37
                      recommendations... ”
   Section 5(a)(1)    “description of significant problems, abuses, and deficiencies... ”                    1-24
   Section 5(a)(2)    “description of recommendations for corrective action…with respect to                  1-24
                      significant problems, abuses, and deficiencies... ”
   Section 5(a)(3)    “identification of each significant recommendation described in previous              25-27
                      semiannual reports on which corrective action has not been completed... ”
   Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution          1-24
                      and convictions which have resulted... ”
   Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section             N/A
                      6(b)(2)... ” (instances where information requested was refused or not
                      provided)
   Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report             41-53, 54
                      issued...” showing dollar value of questioned costs and recommendations that
                      funds be put to better use.
   Section 5(a)(7)    “a summary of each particularly significant report... ”                                1-24
   Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar      55
                      value of questioned costs... ”
   Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar            55
                      value of recommendations that funds be put to better use by management... ”
   Section 5(a)(10)   “a summary of each audit report issued before the commencement of the                   55
                      reporting period for which no management decision has been made by the end
                      of reporting period... ”
   Section 5(a)(11)   “a description and explanation of the reasons for any significant revised              N/A
                      management decision... ”
   Section 5(a)(12)   “information concerning any significant management decision with which the             N/A
                      Inspector General is in disagreement... ”
   Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial                N/A
                      Management Improvement Act of 1996... ” (instances and reasons when an
                      agency has not met target dates established in a remediation plan)
   Section 8(f)(1)    “information concerning the number and types of contract audits... ”                    56
Semiannual Report for Transmission to Congress




                                   This page left blank intentionally
                                                     Semiannual Report for Transmission to Congress



                                        FOREWORD
       On September 10, 2005, I assumed the position of Acting Inspector General of the
Department of Defense. On behalf of over 1400 employees of the Office of Inspector General
(OIG) I am pleased to submit this Semiannual Report to Congress for the period April 1, 2005, to
September 30, 2005.

         This report summarizes the significant accomplishments of the OIG. During this reporting
period the Department of Defense continued to be actively engaged in the Global War Against
Terror. Assisting the Department by reviewing the management of programs and operations
pertaining to the Global War on Terror has been a priority for the OIG. Recent reports issued by
this office include:

       •   A joint Department of State/Department of Defense Inspectors General Interagency
           Assessment of Iraqi Police Training;

       •   A report on the Intelligence Community Inspectors General Forum Review of the National
           HUMINT Requirements Tasking Center conducted in conjunction with the Inspectors
           General of the Central Intelligence Agency, Department of State and the Defense
           Intelligence Agency; and

       •   A report on the DoD Patient Movement System which has the mission to safely transport
           U.S. military casualties from a combat zone to fixed medical treatment facilities and field
           hospitals in or out of the combat theater.

        As this reporting period closed, the Nation was confronted by the natural disasters resulting
from Hurricanes Katrina and Rita. Congress and agencies across the Federal government,
including the Department of Defense, were quick to respond. Congress has appropriated over $60
billion in emergency funds to aid victims and repair damaged infrastructure. The Department of
Defense has a significant role in the recovery efforts and Congress and the American people will
look for assurance that funds to aid victims are used efficiently for their intended purpose. The
OIG DoD is cooperating with other Inspectors General to ensure proper oversight of Hurricane
relief funds is provided. This office has committed 83 auditors and investigators to provide
immediate oversight of DoD contracts, grants, and operations relating to Hurricane Katrina relief
and recovery. Other DoD audit and investigative offices are also actively involved in providing
oversight of these funds. In addition, the Defense Hotline is operating, on behalf of the Federal
government, a Hurricane Relief Fraud Hotline.




                                              Thomas F. Gimble
                                              Acting Inspector General
                    Semiannual Report for Transmission to Congress




This page left blank intentionally
Semiannual Report for Transmission to Congress                                                                         Table of Contents


                                                TABLE OF CONTENTS

                                                                                                                                        Page

CHAPTER ONE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Joint Warfighting and Readiness. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Homeland Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
  Information Technology Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
  Acquisition Processes and Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
  Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
  Logistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Infrastructure and Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  Other Significant Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

CHAPTER TWO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
  Deputy Inspector General for Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
  Deputy Inspector General for Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
  Deputy Inspector General for Intelligence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
  Deputy Inspector General for Inspections and Policy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
  Office of Communications and Congressional Liaison . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

APPENDICES
  A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . 41
  B. DoD OIG Audit Reports Issued Containing Quantifiable Potential
         Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54
  C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
  D. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
  E. Status of Action on Significant Post-Award Contract Audits . . . . . . . . . . . . . . . . . . . . 57

FIGURES
   1. Suspensions and Debarments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
   2. Investigative dollar recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
   3. Indictments and Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
   4. DoD Total Senior Official Cases - FY 00 - FY 05. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
   5. Nature of Substantiated Allegations Against Senior Officials
          During 2nd Half FY 05 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
   6. Intelligence-Related Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Table of Contents                      Semiannual Report for Transmission to Congress




                    This page left blank intentionally
Semiannual Report for Transmission to Congress                                           Chapter One




CHAPTER 1 – SIGNIFICANT ACTIVITIES

                            The Department of Defense Inspector General (DoD IG) annually
                            assesses the most serious management and performance challenges
                            faced by the Department of Defense (DoD) based on the findings and
                            recommendations of audits, inspections, and investigations conducted
                            during the year. The Inspector General Summary of Management
                            Challenges is included in the Department of Defense Performance and
                            Accountability Report. In the Fiscal Year 2004 Performance and
                            Accountability Report, the following challenges were identified:

                                      Joint Warfighting and Readiness
                                      Homeland Defense
                                      Human Capital
                                      Information Technology Management
                                      Acquisition Processes and Contract Management
                                      Financial Management
                                      Health Care
                                      Logistics
                                      Infrastructure and Environment

                            This chapter summarizes some of the significant activities of the
                            Department of Defense Office of Inspector General (DoD OIG) and
                            other DoD oversight organizations as they relate to the management
                            challenges.

JOINT WARFIGHTING           U.S. forces continue transforming to meet the threats of the 21st century
AND READINESS               and beyond. Ongoing efforts by the Services, incorporating lessons
                            learned from Operations Iraqi Freedom and Enduring Freedom, focus on
                            developing the capabilities of the armed forces to provide an effective
                            response to all threats, both conventional and unconventional. But unlike
                            as in previous eras, a new readiness requirement is emerging, the ability
                            to conduct peacekeeping and stabilization operations. Although other
                            management challenges encompass areas that impact joint warfighting
                            and readiness issues, the synergy of those challenges will determine the
                            extent to which the United States will be able to achieve its national
                            objectives through joint operations.




                                                    1
Chapter One                                                     Semiannual Report for Transmission to Congress




                                  A DoD OIG audit assessing management and execution of the Warsaw
                                  Initiative program (a program developed to promote peaceful uses of
                                  military forces by developing countries) found that DoD had executed
                                  the program without developing guidance on the appropriate use of
                                  funds or procedures for documenting payments. Also, the Department’s
                                  consideration of other laws could have authorized additional recipients
                                  of the funds. As a result, the Department made payments without
                                  supporting documents and may have missed the opportunity to approve
                                  funds for authorized countries. The Department agreed to issue
                                  guidance and request a legal review to determine the most beneficial
                                  laws for identifying recipients of funds.

                                  An Air Force Audit Agency audit concluded that personnel tasked to
                                  support Air Expeditionary Force operations were not fully qualified nor
                                  ready to deploy. A comparison of deployment requirements to
                                  supporting documentation for 1,020 on-call individuals determined that
                                  265 were not medically qualified, 420 were not fully trained, and 595
                                  were missing personal readiness documentation such as security
                                  clearances, emergency notification data, and restricted area badges.
                                  Additionally, although installation planners had sufficient stocks of A-
                                  mobility bags, they did not maintain adequate stocks of items needed to
                                  protect deploying personnel from insect-borne illnesses.

                                  The four Defense Criminal Investigative Organizations (DCIOs) 1
                                  provide investigative support and valuable intelligence information to
                                  the Department’s Global War on Terrorism and agents lend their
                                  assistance in humanitarian efforts around the world. Examples of the
                                  DCIOs efforts in joint warfighting and readiness follow.

                                  The Air Force Office of Special Investigations (AFOSI) undertook two
                                  major initiatives focused on the War on Terrorism. First, they increased
                                  their effect-based support to Combatant Commanders by merging their
                                  counterintelligence and counterterrorism programs into a single
                                  Strategic Counterintelligence Branch. The merger codified operational
                                  processes and focused the full spectrum of offensive and defensive
                                  counterintelligence activity. Analytical products developed by this
                                  branch help Combatant Commanders understand the significance of the
                                  terrorist and insurgent threat to DoD personnel and resources.


1. The Defense Criminal Investigative Organizations (DCIOs) are the Defense Criminal Investigative Service (DCIS), a
component of the DoD OIG; the U.S. Army Criminal Investigation Command (USACIDC); the Naval Criminal
Investigative Service (NCIS); and the Air Force Office of Special Investigations (AFOSI).




                                                          2
Semiannual Report for Transmission to Congress                                              Chapter One




                             Second, AFOSI collection operations worldwide facilitated development
                             of targeting packages against several hundred terrorist and insurgents
                             opposing Coalition Forces in Afghanistan and Iraq. This intelligence
                             allowed Special Operations and Coalition Forces to take direct action to
                             mitigate threats and led to the capture of dozens of insurgents,
                             destruction of hundreds of tons of explosives and the identification of
                             weapons caches throughout the Southwest Asia Theater of Operations.

                             The Naval Criminal Investigative Service (NCIS) also strengthened its
                             efforts in the War on Terrorism by instituting new security and
                             protection measures at overseas ports visited by US vessels. The Port
                             Visit Support program detects and warns of threats to Navy personnel
                             while in those ports. .

HOMELAND DEFENSE             The DoD defines a threat as any circumstance or event with the potential
                             to cause harm. The Global War on Terrorism continues to heighten the
                             level of threat to the United States from its adversaries. Direct threats to
                             the homeland infrastructure are obvious and DoD has accomplished
                             much progress in effectively anticipating and preventing those threats.
                             However, chemical or biological threats remain as a significant
                             challenge.

                             The DoD OIG along with six other Federal inspectors general conducted
                             an interagency review evaluating the effectiveness of coordination
                             between the various Federal agencies of the export licensing process for
                             chemical and biological commodities. The audit found that the process
                             for reviewing export license applications was adequate; however,
                             improvements were warranted. Specifically, management could improve
                             processes relating to the timeliness of reviews, knowledge of export
                             regulations, identification of controlled exports, and denial of export
                             licenses.

                             An Army Audit Agency report found that Army training for response to
                             chemical, biological, radiological, nuclear, and high-yield explosive
                             incidents was not compatible with that provided to other Federal, State,
                             and local first responders. Army personnel received training from
                             various sources, such as contractors, State academies and the U.S. Army
                             Chemical School. Other first responders received training on
                             consequence management from the Center for Domestic Preparedness,
                             the only federally chartered center for weapons of mass destruction
                             training.




                                                  3
Chapter One                                                    Semiannual Report for Transmission to Congress




                                 An Air Force Audit Agency review of the demilitarization process
                                 employed during disposition of militarily specific supply items found
                                 that the process needed improvement. Managers did not properly assign
                                 demilitarization codes or review codes at item disposition. Additionally,
                                 they did not ensure that computer media were properly sanitized before
                                 initiating disposal. Proper assignment or review of demilitarization
                                 codes and sanitizing of computer media helps prevent compromise of
                                 military technology, national interests, public safety, and security, which
                                 could occur if military capabilities or sensitive information were
                                 released to the public.

                                 The DCIOs actively participate in worldwide joint terrorism task forces
                                 (JTTF), sharing and acting on information, and relying on the unique
                                 skills and investigative specialties of the participating organizations to
                                 ensure no potential threat goes unchecked. Most recently, they partnered
                                 with other law enforcement organizations in evacuation and recovery
                                 efforts in the aftermath of Hurricanes Katrina and Rita.

                                 Examples of the support the DCIOs are providing Homeland Defense
                                 follow.

                                 The AFOSI deployed agents to support Joint Task Force Katrina (JTFK)
                                 efforts in the hurricane-impacted areas and serve as law enforcement
                                 advisors to the JTFK Provost Marshall on force protection and criminal
                                 matters involving United States Air Force (USAF) personnel and
                                 resources. AFOSI Agents also supported federal and local law
                                 enforcement threat working groups.

                                 In May 2005 the AFOSI began Operation RUTHLESS RAVEN, an
                                 aggressive campaign to interdict contraband and narcotics being
                                 smuggled aboard military transportation systems. A task force,
                                 comprised of agents, analysts and data miners, was formed to identify
                                 vulnerabilities and indications of illegal smuggling activity. In addition
                                 to the task force, AFOSI organized a federal level working group
                                 consisting of the MCIOs 1 and other key federal law enforcement
                                 agencies to conduct liaison, share narcotics intelligence information, and
                                 conduct joint narcotics operations in an effort to detect and deter
                                 narcotics smuggling within the DoD.


1. The Military Criminal Investigative Organizations (MCIOs) are the U.S. Army Criminal Investigation Command
(USACIDC); the Naval Criminal Investigative Service (NCIS); and the Air Force Office of Special Investigations
(AFOSI).




                                                         4
Semiannual Report for Transmission to Congress                                               Chapter One




                             In defense of Homeland Security, NCIS provided physical security, law
                             enforcement training and vulnerability assessments to support the
                             Secretary of the Navy’s Critical Infrastructure Program. Agents provide
                             routine Integrated Vulnerability Assessments for Navy installations with
                             a population of 300 or more personnel.

                             NCIS also supports the FBI’s National Joint Terrorism Task Force
                             (NJTTF) and FBI’s JTTFs throughout the Continental United States and
                             Hawaii.

                             The NCIS, along with Immigration and Customs Enforcement, initiated
                             a joint operation to identify terrorists, foreign intelligence officers,
                             criminals and aliens who utilize forged or fraudulent immigration
                             documents to secure employment aboard U.S. Naval installations. To
                             date, this operation has resulted in the apprehension of 101 suspects --
                             citizens of Mexico, Colombia, Chile, Philippines, Cuba, and Vietnam --
                             with access to Naval bases.

                             In Seattle, a joint investigation resulted in the arrest and conviction of 18
                             Gambians suspected of planning a terrorist attack. Two suspects were
                             identified as operating a local business in which two affiliated businesses
                             have been linked to known terror suspects. One subject pled guilty to
                             immigration and passport violations, receiving 36 months confinement.
                             Ten other suspects pled guilty to immigration and passport violations.
                             Their cases are awaiting final adjudication. All subjects are expected to
                             be deported after serving their sentences.

                             An Iranian exporter who pled guilty to violations of the Arms Export
                             Control Act and Money Laundering was sentenced to 57 months in
                             prison; 24 months supervised release, and required to pay a $200 court
                             assessment. Agents working a joint investigation determined that the
                             suspect attempted to export aircraft parts and components for F-4 and F-
                             14 fighter aircraft and other items from the U.S. to Iran without having
                             obtained required export licenses from the Department of State.

HUMAN CAPITAL                The challenge in the area of human capital is to ensure that the DoD
                             civilian and military workforces are appropriately sized, well trained and
                             motivated, held to high standards of integrity, and capable of functioning
                             in an integrated work environment and handling the emerging
                             technologies and threats of the 21st century. The Department employs
                             more than 3.28 million civilian and military personnel. The challenges
                             of managing such a large workforce, to include oversight of contractor




                                                   5
Chapter One                              Semiannual Report for Transmission to Congress




              personnel, highlight the need for the DoD to identify and maintain a
              balanced level of skills to sustain core defense capabilities and meet the
              increasing challenges and threats of the 21st century.

              The DoD is designing a new civilian human resources management
              system to better support its critical national security mission. The
              National Security Personnel System will change how the DoD hires,
              pays, promotes, disciplines, and removes its civilian workforce.

              In recognition that human capital is a crucial area within the Department,
              as well as a focus of the President’s Management Agenda, the DoD OIG
              human capital audit team is conducting a review of the Personnel
              Security Clearance process. Additionally, to ensure coordination among
              the DoD audit community, the DoD OIG continues its participation in
              the Human Capital Joint Audit Planning Group with the Service audit
              agencies.

              An Army Audit Agency report found that the duration of courses at the
              Army Intelligence Center could be reduced by tailoring the courses to
              the requirements of the soldiers’ first unit assignment. The current
              training strategy, although in accordance with Training and Doctrine
              Command regulations, often provided considerably more training to new
              soldiers than was necessary for their first unit assignments. This
              approach not only increased costs but also delayed the soldiers’
              availability to their new units.

              A Naval Audit Service review concluded that changes made to the Navy
              Standard Workweek, the Make Ready and Put Away allowance, and the
              Productivity Allowance may not reflect true manpower requirements.
              Enlisted manpower requirement reductions were not based on sufficient
              and current verifiable analysis, manpower studies, or other data.
              Additionally, rather than determining unconstrained manpower
              requirements, the Navy Manpower Analysis Center changed manpower
              parameters to obtain a predetermined outcome that reduced manpower
              requirements at a level consistent with or less than Billets Authorized for
              the CG 47 class ship. The results represent current funded billets that
              may not reflect actual needs.

              In two separate audit reports, the Air Force Audit Agency concluded that
              active duty airmen and Air Reserve Component members did not always
              prepare sufficient family care plans to provide for the well-being of
              family members. This included either not having family care plans on




                                   6
Semiannual Report for Transmission to Congress                                           Chapter One




                             file or having plans that lacked one or more required elements, such as
                             current powers of attorney. Additionally, many of the reviewed plans had
                             discrepancies affecting the workability of the plan, such as expired
                             powers of attorney and inaccurate caregiver phone numbers. Workable
                             family care arrangements improve the ability of military members to
                             promptly deploy and are essential for ensuring dependents receive
                             authorized benefits and privileges.

                             In March 2005, AFOSI launched the Deployment Stress Management
                             Program (DSMP) in an effort to reduce the psychological impact on OSI
                             members and their families due to deployments to high threat areas. The
                             program utilizes psychologists and specialty trained peer coaches to
                             provide education on deployment stress issues to OSI personnel.

                             At the request of the Vice Chief of Naval Operations (VCNO), the Navy
                             Inspector General (NAVINSGEN) conducted a review of the Navy’s
                             Sexual Assault Intervention (SAVI) program and worldwide study of
                             sexual assault in the Navy. NAVINSGEN found that marginal program
                             management, poor command level execution and lack of accountability
                             had diminished the effectiveness of the SAVI program putting Sailors
                             and their families at risk. NAVINSGEN findings complemented 35 of 38
                             conclusions made in the DOD Task Force Report on the Care of Victims
                             of Sexual Assault released in April 2004. Since the completion of the
                             NAVINSGEN study, there has been a significant increase in Navy
                             commands reporting sexual assaults to higher authority. Although DOD
                             is now providing significant guidance to the Services on the
                             implementation of their new sexual assault response programs, there
                             does not appear to be any DOD funding allocated to support additional
                             program requirements.

INFORMATION                  The DoD Components use information technology (IT) to support all
MANAGEMENT                   mission functions of the Department, including business, warfighting,
TECHNOLOGY                   intelligence, and enterprise infrastructure. The President’s Management
                             Agenda for expanding electronic government has identified effective
                             planning for IT investments as a priority. Improving IT security as part
                             of IT management is one of the highest priorities of the Office of
                             Management and Budget (OMB). The DoD OIG plans to continuously
                             audit and monitor IT management, investment, and security within the
                             DoD.

                             The magnitude of the information technology management challenge
                             continues to be extremely problematic for the Department. A root cause
                             of this difficulty is the inability of the Department to provide clear


                                                 7
Chapter One                              Semiannual Report for Transmission to Congress




              guidance to Components on IT management issues such as defining
              what constitutes an information technology system, determining security
              standards needed for certifying systems, documenting and reporting
              identified security weaknesses to higher management (to include OMB),
              and specifying what assets to include in the inventory of the Global
              Information Grid. Further, the Department still has not identified all
              personnel performing information assurance and information technology
              duties, developed training and certification requirements for those
              individuals, nor implemented a process for tracking implementation of
              those requirements. Furthermore, the Department continues to
              significantly underreport expenditures for information technology
              because it is unable to identify the initiatives and investments it supports
              (other than through a self-reporting mechanism that lacks internal
              controls) and has no comprehensive inventory of IT systems to support
              its reports to OMB regarding system security, privacy and e-
              authentication.

              DoD OIG audits determined that neither current nor planned draft DoD
              guidance on information security are as stringent as the standards
              promulgated by the National Institute of Standards and Technology
              mandated for use by all Federal agencies. As a result, DoD systems and
              data may be at higher risk for compromise.

              A DoD OIG audit identified that DoD is taking steps to enhance its
              policies for the DoD Chief Information Officer, governance for business
              systems, information technology portfolio management, and information
              security; however, further work remains. DoD needs to clarify the
              obligation of DoD Components to implement DoD Chief Information
              Officer policy, use a standard definition of “system,” finalize a directive
              on portfolio management, appoint a permanent employee to the position
              of senior agency information security officer, and provide oversight of
              Component compliance with investment review process requirements.

              An Army Audit Agency audit determined that the System-of-Systems
              Architecture database did not provide accurate funding, expenditure, or
              requirements data for each personnel information technology system
              under the Human Resources Command. The database is designed to
              account for all personnel systems, applications, reports, extracts, and
              databases existing within the Army personnel community. Although the
              database is capable of providing the information necessary to help Army
              leaders make management, prioritization, and budget decisions,
              improvements are still needed.




                                   8
Semiannual Report for Transmission to Congress                                           Chapter One




                             A Naval Audit Service audit identified several examples of incomplete
                             information security controls at four shipyards. Comprehensive activity
                             information system security plans had not been implemented;
                             information technology risk assessments were not performed on an
                             organization-wide basis; access controls were not monitored or tested;
                             information security documentation was not universally available; and
                             service continuity controls including backup and disaster recovery had
                             not been developed. Also, information security awareness training
                             policies and procedures were either incomplete or had not been
                             developed at three of the four shipyards.

                             An Air Force Audit Agency audit determined that network personnel did
                             not establish adequate controls over network equipment maintenance.
                             Because they did not evaluate all the options for the most cost effective
                             maintenance, they improperly included highly reliable, uninstalled, and
                             warranted equipment in maintenance contracts. By omitting this type of
                             items from maintenance contracts, the Air Force could save $22.7
                             million over the 6-year Future Years Defense Program (FYDP).
                             Additionally, network personnel maintained excessive uninstalled
                             network equipment and either did not correctly code or record
                             equipment items on accountability records. An estimated 11,000
                             equipment items valued at $64.6 million could not be located or were
                             not properly recorded and the Air Force could save an estimated
                             $652,000 over the 6-year FYDP by using uninstalled equipment to
                             satisfy new requirements.

                             The Air Force Audit Agency also reported that major command
                             personnel did not always certify and accredit systems according to
                             Air Force and DoD guidance. Additionally, personnel did not accurately
                             report selected certification and accreditation data elements. Complete
                             and accurate certification and accreditation packages increase
                             management awareness of vulnerabilities and risks, maximize
                             information protection, and promote operational continuity.

                             DCIO agents regularly coordinate with other national intelligence and
                             law enforcement representatives through participation in various task
                             forces and groups. They also participate in the Law Enforcement and
                             Counterintelligence Center at the Joint Task Force, Global Network
                             Operations. The AFOSI serves as executive agent for the Defense Cyber
                             Crime Center (DC3), which consists of the Defense Computer Forensics
                             Laboratory (DCFL), Defense Computer Investigations Training Program
                             (DCITP), and Defense Cyber Crime Institute (DCCI). The DCFL
                             provides counterintelligence, criminal and fraud computer-evidence


                                                 9
Chapter One                                Semiannual Report for Transmission to Congress




                processing, analysis, and diagnosis for DoD investigations. Through its
                DCITP, DC3 provides training in computer investigations and computer
                forensics to DoD investigators. The DCCI completes the computer
                crimes support effort by meeting the research, development, testing, and
                evaluation needs of the DCIOs. Two examples of criminal investigations
                involving information technology follow.

                In Colorado, a Venezuelan national pled guilty to illegally accessing and
                intentionally damaging a protected computer system belonging to a
                Defense agency. A joint investigation led to the identification and
                prosecution of the subject and several others affiliated with “World of
                Hell,” a group of computer hackers who assisted each other with
                intrusions they made into government, business, and corporate
                computers. Sentencing is due in November 2005.

                Two Defense contractor scientists, Hai Lin and Yong-Qing Cheng, who
                owned and operated Comtriad Technologies Corporation, pled guilty to
                one count each of wire fraud for stealing proprietary source codes for a
                system of hardware and software designed to enable low-cost voice and
                data transmission over the Internet. The scientists were sentenced to a
                $250,000 fine and a $400 special assessment fee. In addition, they were
                sentenced to probation for either one year or until such time that the
                corporation is legally dissolved. The employees utilized Comtriad
                Technologies Corporation to transfer the software to a government-
                owned Chinese company.

ACQUISITION     The Department of Defense is the world’s largest purchaser of goods and
PROCESSES AND   services. In FY 2004 alone, DoD spent $254 billion on acquisition. On
CONTRACT        an average working day, DoD issues more than 25,000 contract actions,
MANAGEMENT      valued at $923 million, and makes more than 195,000 credit card
                transactions, valued at $43.9 million. There are about 1,500 weapon
                acquisition programs valued at $2.2 trillion over the collective lives of
                these programs. In addition, during FY 2004, DoD submitted
                approximately 24,000 Military Interdepartmental Purchase Requests
                (MIPRs), valued at $8.56 billion, to the General Services Administration
                (GSA) for the purchase of goods and services. Every acquisition dollar
                that is not prudently managed results in that dollar not being available to
                fund the Secretary of Defense’s top priorities, such as the Global War on
                Terrorism and joint warfighting capabilities.

                The investigations into violations of the Procurement Integrity Act by
                DoD and contractor personnel and the resulting impact on acquisition
                programs highlight the need for continued training for acquisition


                                    10
Semiannual Report for Transmission to Congress                                             Chapter One




                             professionals. As a result of the fraudulent acts of senior DoD officials,
                             the DoD OIG continues to conduct investigations and audits of
                             numerous DoD acquisition programs. The DoD OIG conducted a
                             management accountability review on the role of the Office of the
                             Secretary of Defense and Air Force officials in the planned lease of KC-
                             767A Tanker Aircraft. The review determined that in their efforts to
                             lease the tanker aircraft, the accountable officials did not comply with
                             required guidance, including DoD acquisition policy, the Federal
                             Acquisition Regulation, and OMB circulars. To prevent recurrences of
                             this type, the Department must change the cultural environment in its
                             acquisition community by establishing proper controls in the major
                             weapon system acquisition process and by monitoring compliance with
                             those controls.

                             The DoD OIG reviewed the Air Force planned procurement strategy for
                             program requirements for the previously deferred Phase II of the Small
                             Diameter Bomb program. The review concluded that despite the Air
                             Force Program Office’s assertion that the planned procurement strategy
                             mitigated program cost and performance risk because the prime
                             contractor intended to compete the seeker technology, the strategy did
                             not provide the opportunity for other contractors to compete as the prime
                             contractor for the future Phase II program requirements. In addition,
                             guidance is needed to ensure that spiral or incremental development
                             programs comply with statutory requirements for competition.

                             The DoD audit community continues to identify ways in which the
                             Department could improve the acquisition of weapon system programs.
                             DoD OIG audits of the EA-6B Improved Capability III Program and the
                             Extended Range Guided Munition Program highlighted the need to
                             identify quantity requirements, determine weapon system affordability,
                             have satisfactory operational test results, and obtain authority to operate
                             before making investment decisions.

                             The DoD audit community has significantly contributed to the
                             Department’s aggressive pursuit of savings through use of credit cards
                             and reduced vulnerability to misuse. Efforts of the DoD OIG data
                             mining group and purchase card program office of DoD have increased
                             senior leadership involvement and improved management controls over
                             the purchase card program. This is not just a domestic issue because
                             overseas purchase card transactions are also a significant part of the
                             program.




                                                  11
Chapter One                            Semiannual Report for Transmission to Congress




              A DoD OIG audit of DoD Purchases made through the GSA, identified
              significant problems in purchases that GSA made for DoD, especially in
              the use of MIPRs. GSA contracting officials and DoD management
              officials did not comply with applicable laws and regulations when
              making purchases through the GSA. The noncompliance included a lack
              of acquisition planning to determine that contracting through the GSA
              was actually the best alternative available; the absence of adequate
              interagency agreements outlining the terms and conditions of the
              purchases; improper funding of purchases; and lack of an adequate audit
              trail.

              The DoD OIG issued two reports on hotline allegations relating to
              acquisition/contracting areas. The review on DoD Hotline Allegations
              Concerning Postaward Audits at the Defense Contract Audit Agency
              Boeing Huntington Beach Resident Office substantiated the allegation
              that the audit office failed to issue a report because the contracting official
              would not support the defective pricing finding. The contracting official
              believed the defective data had been provided at negotiations but was not
              used; however, he would not provide written documentation supporting
              this statement. The Defense Contract Audit Agency (DCAA) agreed to
              review the defective data and issue the report. Two allegations were not
              substantiated and one could not be evaluated because of lost records. In
              the Review of Allegations Concerning Defense Contract Management
              Agency Boeing Seattle Forward Pricing Rates, the DoD OIG
              substantiated the allegation that the most accurate overhead and cost of
              money rates were not being established during 2001 through 2003. The
              Defense Contract Management Agency (DCMA) and the DCAA agreed
              to develop a surveillance plan to better monitor and adjust the rates when
              appropriate.

              The Naval Audit Service issued a report evaluating the implementation of
              Earned Value Management (EVM) for the DDG 51 Arleigh Burke Class
              Destroyer. The Program Management Office had not fully implemented
              EVM and had not effectively used what was implemented on the DDG 51
              acquisition program. Contractors should fully comply with guidelines and
              improve EVM support to Navy program managers for program system
              surveillance. Additionally, the Defense Contract Management Agency
              and the Naval Sea Systems Command should provide EVM oversight and
              improve their surveillance of Navy shipbuilding contracts.

              An Air Force Audit Agency audit of the acquisition management of the
              C-130J Program found that C-130J officials did not effectively plan and
              execute the pilot program acquisition strategy and accepted aircraft with


                                12
Semiannual Report for Transmission to Congress                                           Chapter One




                             technical performance deficiencies that adversely affected operations
                             and support for system users. The officials initiated the program without
                             a fully developed operational requirement; applied commercial
                             contracting practices to an unproven commercial design; established
                             contract terms and conditions that did not adequately protect the
                             Government’s interests; awarded a multi-year contract that did not meet
                             all established multi-year procurement criteria; and established a
                             development systems office that did not have adequate engineering staff
                             and access to C-130J technical data.

                             DoD Directive 7640.2, “Policy for Follow-up on Contract Audit
                             Reports,” as amended August 16, 1995, prescribes DoD policies and
                             procedures, including the requirement that report recommendations be
                             resolved within six-months of issuance and closed within 12 months. At
                             the end of this semiannual reporting period, 416 reports with costs
                             questioned of $1.1 billion exceed the six month requirement for
                             resolution and 255 reports with costs questioned of $725.6 million
                             exceeded the 12-month requirement and were not closed.

FINANCIAL                    The DoD financial statements are the largest, most complex, and most
MANAGEMENT                   diverse financial statements in the world. The Department faces
                             financial management problems that are complex, long-standing,
                             pervasive, and deeply rooted in virtually all business operations
                             throughout the DoD. These problems have hindered the ability to
                             provide reliable, timely, and useful financial and managerial data to
                             support operating, budgeting, and policy decisions.

                             The DoD OIG is working with the Department to address long-standing
                             financial management problems and supports the DoD goal of achieving
                             a favorable audit opinion for the DoD Agency-Wide financial statements
                             and the major DoD Components. The Under Secretary of Defense
                             (Comptroller)/Chief Financial Officer (CFO) has directed an initiative to
                             improve financial management within the Department. The DoD OIG is
                             monitoring the progress in preparing the DoD Financial Improvement
                             and Audit Readiness Plan and supports the objective of the plan, which
                             is to provide ongoing, cross-functional collaboration with DoD
                             Components to yield standardized accounting and financial management
                             processes, business rules, and data that will provide a more effective
                             environment to better support the war-fighting mission. The DoD OIG
                             supports the DoD ongoing efforts to target achievable, incremental
                             change and to initiate the change necessary for continual, sustainable
                             improvement in financial management. However, achieving an
                             unqualified audit opinion for the DoD Agency-wide financial statements


                                                 13
Chapter One                            Semiannual Report for Transmission to Congress




              and the major DoD components will be difficult without achieving
              favorable opinions on internal controls. In this regard, DoD OIG will
              focus more audit emphasis on reviews of internal control. DoD OIG is
              also encouraging the Department to focus more on improving internal
              controls in order to achieve a favorable audit opinion.

              Section 352 of the FY 2005 National Defense Authorization Act
              (Public Law 108-375, 10/29/04) placed restrictions on the use of
              appropriated funds for the purpose of preparing or implementing the Mid-
              Range Financial Improvement Plan until the Secretary of Defense submits
              a required report to Congress. In compliance with this law, the DoD OIG
              has not conducted any audits related to the preparation or implementation
              of the Mid-Range Financial Improvement Plan, but is continuing to work
              with the Office of the Under Secretary of Defense (Comptroller)/CFO as
              they prepare the report.

              The DoD OIG awarded contracts and provided comprehensive oversight
              to Independent Public Accounting firms to audit five financial
              management systems and the Defense Information Systems Agency
              (DISA) Computing Services. These systems support multiple DoD and
              Federal entities. The audits assessed the design and operating
              effectiveness of general and application controls; compliance with the
              Federal Financial Management Improvement Act and other significant
              laws and regulations; and system certification and accreditation.
              Performing overall audits of the systems prevented duplication of effort
              by individual auditors. Although the audits concluded that control
              objectives were generally being met, they identified reportable conditions
              related to controls over entity-wide security program planning and
              management; physical and logical access; change management;
              segregation of duties; and service continuity that risked the
              confidentiality, integrity, and availability of sensitive data. There were
              also instances of noncompliance with the Federal Financial Management
              Improvement Act, the Financial Information Systems Management Act,
              and requirements for system certification and accreditation. DoD system
              owners are working to promptly correct the identified deficiencies on
              systems that DoD expects to continue using during the next few years.
              The DoD OIG should be performing more of these systems audits, not
              solely for financial reporting purposes, but to facilitate improved financial
              management within DoD. However, insufficient resources have restricted
              this capability.

              The DoD OIG issued two audit reports addressing FY 2005 Emergency
              Supplemental funding for two agencies: DISA and the Defense Logistics



                                14
Semiannual Report for Transmission to Congress                                             Chapter One




                            Agency (DLA). Both reports identified problems related to
                            documentation and reporting of costs. At DISA, officials did not
                            adequately document command, control, communications, computers,
                            and intelligence costs incurred in support of contingency operations and
                            did not accurately report costs under the correct contingency operation in
                            the June 2004 Terrorist Cost Report. As a result, officials in the Office of
                            the Chief Financial Executive could not ensure the proper use of
                            supplemental funds, and the monthly Terrorist Cost Report did not
                            accurately report incremental costs that DISA incurred in support of the
                            Global War on Terrorism (GWOT).

                            At DLA, while correct methodologies were used to calculate
                            transportation costs reported in the Terrorist Cost Report, the processes
                            were not documented in formal procedures. This resulted in improper
                            calculation of the incremental fuel costs, and in the June 2004 Terrorist
                            Cost Report being overstated. As such, the Terrorist Cost Report did not
                            accurately reflect DLA support of the GWOT. The Office of the Under
                            Secretary of Defense (Comptroller)/CFO stated that Congress and senior
                            DoD officials require its office to report on the execution of supplemental
                            funds, in addition to incremental costs. However, they agreed that
                            confusion exists among DoD Components as to which costs should be
                            reported.

                            The DoD OIG issued Quality Control Review of McGladrey & Pullen
                            LLP, Office of Management and Budget Circular A-133 Audit Report of
                            the Analytic Services Inc., Fiscal Year Ended September 30, 2002. The
                            Single Audit Act requires the Certified Public Accounting (CPA) firm to
                            perform a financial statement and compliance review to ensure that
                            Federal monies awarded to states, local governments, and non-profit
                            organizations are properly accounted for and used. The DoD OIG found
                            the CPA firm’s work to be so inadequate that it referred the firm to the
                            American Institute of Certified Public Accountants (AICPA) for action.
                            The DoD OIG also assisted the Department of Health and Human
                            Services OIG by performing the review of the National Guard programs
                            as part of their single audit oversight reviews in Maine and Alaska. These
                            reviews were part of the National Sampling Initiative, a joint Federal
                            agency review of the single audit program to establish a baseline for how
                            CPA firms are performing single audits of states, local governments, and
                            non-profit organizations.

                            A Naval Audit Service audit found that the Defense Finance and
                            Accounting Service (DFAS) made unsupported adjusting entries to Navy
                            accounting records that required balancing Navy records with Department


                                                  15
Chapter One                                Semiannual Report for Transmission to Congress




              of Treasury records in order to prepare financial reports. Additionally,
              DFAS did not effectively manage the tracking and reporting of problem
              disbursements or properly disclose unreconciled or unsupported
              differences between Navy records and Treasury records on the
              Department of the Navy’s financial statements. Consequently, the Navy’s
              FY 2003 General Fund financial statements were potentially misstated by
              about $4.2 billion.

              The Air Force Audit Agency issued a report on management of GWOT
              funds. Financial managers could not provide documentation to support
              approximately 26 percent of 3,588 transactions reviewed, totaling more
              than $2.6 billion. Furthermore, financial managers did not always
              deobligate unneeded GWOT funds. Promptly doing so would allow Air
              Force officials to use $39.3 million for other valid GWOT requirements.
              In addition, funds holders did not identify GWOT transactions totaling
              $1.9 billion that were inaccurately processed in the accounting system.

              The Department of Defense loses millions of dollars annually because of
              financial crime, public corruption, and major thefts. Through the
              investigative efforts of DCIO special agents, abuses in the procurement
              process, such as the substitution of inferior products, overcharges, bribes,
              kickbacks, and cost mischarging, are exposed. Additionally, the DCIOs
              have partnered with acquisition and financial agencies to proactively
              identify areas of vulnerability. Examples of investigations related to
              financial management follow.

              A former Defense contractor comptroller was sentenced to 78 months in
              prison, and 36 months supervised release, and ordered to pay a $200,000
              criminal forfeiture and a $7,200 special assessment as a result of a 72
              count conviction arising out of schemes to defraud the Department of
              Defense, Internal Revenue Service, and numerous cable television (CTV)
              networks, while laundering the proceeds from the fraud. The contractor
              agreed to pay the Government $1 million as part of a settlement
              agreement in lieu of civil litigation relating to the termination of
              settlement proposals. These settlement proposals were, in part, fraudulent
              and unsupported relating to costs for CTV services allegedly incurred at
              military installations in connection with base closures.

              As a result of a joint investigation, based on information filed in a qui tam
              lawsuit, a major Defense contractor entered into a civil settlement
              agreeing to pay the Government $41.9 million to resolve over-billing
              allegations. The agreement also required the contractor to pay the qui tam
              relator’s attorney’s fees and expenses in the amount of $1.6 million. The


                                    16
Semiannual Report for Transmission to Congress                                               Chapter One




                            contractor allegedly over-billed various DoD agencies and contractors for
                            auditing and consulting services, to include travel-related expenses. The
                            company also allegedly had agreements to receive secret rebates from
                            certain airlines, hotel chains, rental car providers, credit card issuers, and
                            other entities that were not disclosed or credited to the Government.

                            A major Defense contractor agreed to pay the Government $7.5 million as
                            a result of a settlement agreement to resolve allegations that the company
                            failed to properly account for uncompensated overtime in proposing,
                            negotiating, billing, and receiving payments for products and services for
                            DoD contracts, including those sold through foreign military sales and
                            foreign military funding.

                            An investigation, based on a whistleblower suit, resulted in Oracle
                            Corporation, one of the world’s largest enterprise software companies,
                            agreeing to pay $8 million to resolve allegations that the company had
                            submitted false claims for payment for computer training to a variety of
                            Defense and other Government agencies. The whistleblower in the case
                            will receive $1.58 million of the total settlement amount.

                            Honeywell Technology Solutions, Inc. (HTSI), a major DoD contractor,
                            entered into a civil settlement and agreed to pay $2.75 million to settle
                            allegations of making false statements during their response to a request
                            for proposal from a DoD agency. HTSI stated that they had a compliant
                            and certified earned value management system in place since the first day
                            of the contract. However, HTSI did not have the system and subsequently
                            billed the government for development of the system.

                            Raytheon E-Systems, Incorporated, a major Defense technology
                            contractor agreed to pay a total of $4.5 million as a result of a negotiated
                            settlement to resolve allegations that they charged unallowable excess
                            costs for employee relocation expenses to a wide range of DoD contracts.
                            The contractor conducted an internal inquiry that resulted in the
                            identification of accounting errors in the overcharges of approximately $2
                            million dollars to the Government.

                            As the result of an investigation initiated following notification from the
                            United States Department of Justice regarding a possible kickback
                            arrangement, Turner Construction, a Defense subcontractor, was ordered
                            to forfeit a DoD contract claim valued at approximately $2 million and
                            pay the DoD “double damages” for $50,318 in bond commissions. Turner
                            Construction arranged for kickbacks when purchasing construction bonds
                            from a bond broker.


                                                  17
Chapter One                               Semiannual Report for Transmission to Congress




              Watson Wyatt and Company, a Washington, D.C. based global human
              capital consulting firm, agreed to pay $689,828 to the Government for
              over-billing on two DoD contracts. The firm provided actuarial services,
              including management of retirement trusts and related benefits, to DoD
              agencies and allegedly over-billed $335,859 on the two DoD contracts.

              Two Pennsylvania Defense contractors, Satellite Company of America
              and Innovative Concepts, were involved in a scheme designed to defraud
              suppliers, ran a number of small “front” companies that ordered material
              from numerous suppliers, sold the material to the DoD, and didn’t pay the
              original suppliers. The contractors were convicted – Satellite Company of
              America was sentenced to 24 months probation and fined $5,000;
              Innovative Concepts was sentenced to 84 months in prison, restitution in
              the amount of $158,891 and a special assessment of $3,000.

              A joint investigation, based on a qui tam complaint, resulted in
              Aerometals, a Defense contractor, and its officers entering into a civil
              settlement to resolve charges of supplying non-conforming parts on DoD
              contracts. The firm and its officers will pay a total of $524,260 and
              provide a 12-month warranty, valued at $475,000, for the parts that were
              delivered without the necessary FFA certification. The qui tam relater
              received $36,960.

              A major Defense contractor pled guilty to mail fraud and agreed to pay
              restitution of $793,000 plus interest and fines of $400,000 plus interest,
              payable over five years for a total of approximately $1.6 million. Main
              rotor blade expandable pins made by the company and used in DoD
              helicopters were not heat-treated as required by the contract. Failures
              were reported on Army and Air Force Blackhawk helicopters; however,
              there were no reported accidents, injuries, or deaths related to the faulty
              pins.

HEALTH CARE   The DoD challenge in its military health system is to provide high quality
              health care, within fiscal constraints, in both peacetime and wartime for
              approximately 9.2 million eligible beneficiaries. This challenge is
              especially daunting because of the difficulty in controlling costs in both
              the public and private sectors. The DoD challenge is magnified because
              the military health system must also provide health support for the full
              range of military operations. The system was funded for a total amount of
              $30.7 billion in fiscal year 2005, which included $18.2 billion in the
              Defense Health Program appropriation, $6.4 billion in the Military
              Departments’ military personnel appropriation, $0.2 billion for military
              construction, and $5.9 billion from the DoD Medicare-Eligible Retiree


                                    18
Semiannual Report for Transmission to Congress                                             Chapter One




                            Health Care Fund. This fund covers the costs of health care for Medicare
                            eligible retirees, retiree family members, and survivors.

                            The DoD OIG reported on the aeromedial evacuation process from
                            Operation ENDURING FREEDOM and Operation IRAQI FREEDOM
                            theaters of operation. The audit concluded the DoD patient movement
                            system provided timely evacuation of patients from the combat zone that
                            were consistent with theater commander and aeromedical patient
                            movement priorities.

                            An Air Force Audit Agency audit concluded that the Air Force could
                            obtain clinical laboratory services of equal quality at less cost from
                            alternative sources. The Air Force could conduct specialized testing and
                            obtain external laboratory testing at less cost while maintaining the same
                            quality. Testing costs for three specialized tests at 10 Medical Treatment
                            Facilities (MTFs) could be reduced from $7.4 million to $4.4 million
                            annually, a savings of nearly $18.0 million over the 6-year FYDP. Further,
                            reducing commercial testing costs at the 10 MTFs reviewed could allow
                            the Air Force to put to better use $1.2 million over the 6-year FYDP.

                            To ensure that DoD health care funding is utilized in a proper and efficient
                            manner toward providing quality patient care to TRICARE beneficiaries,
                            the DCIS has aggressively pursued health care investigations involving
                            “harm to patient,” corruption, kickbacks, and allegations with significant
                            TRICARE impact. DCIS continues to serve as an active participant in
                            local health care fraud task forces and the National Health Care Anti-
                            Fraud Association. Examples of significant health care fraud
                            investigations follow.

                            A major supplier of durable medical equipment agreed to pay the U.S.
                            Government $1,138,075 as part of a civil settlement to resolve allegations
                            involving health care fraud. A joint investigation based on a voluntary
                            disclosure found that a former employee of the supplier forged
                            physicians’ signatures on multiple Certificates of Medical Necessity that
                            were submitted to TRICARE and other government entities for payment.

                            Two major hospitals and a health care service agency agreed to pay the
                            Government $6.9 million as part of a civil settlement to resolve kickback
                            allegations involving health care fraud. A joint investigation, based on
                            information filed in a qui tam lawsuit, found that the hospitals paid
                            kickbacks for alcohol and substance abuse patient referrals and disguised
                            the unallowable expenses in submitted cost reports to TRICARE and
                            other government entities for payment.


                                                  19
Chapter One                               Semiannual Report for Transmission to Congress




              A medical doctor pled guilty in U.S. District Court and was required to
              pay the Government $2 million as part of an agreement to resolve
              allegations of health care fraud. Four of the doctor’s associates also
              entered into pre-trial diversion agreements with the Government and paid
              the Government $187,000 for their part in the fraud. A joint investigation,
              based on information from other investigative agencies, found that the
              doctor submitted fraudulent costs that included unauthorized and
              medically unnecessary procedures to TRICARE and other government
              entities for payment.

              A TRICARE provider was found guilty of drug trafficking and
              distribution and was required to pay the Government a $1 million fine. A
              joint investigation, based on information from TRICARE, found that the
              doctor was writing unusually large narcotic prescriptions to patients under
              his care including a TRICARE beneficiary who died of drug poisoning.

              At the request of the Vice Chief of Naval Operations (VCNO),
              NAVINSGEN conducted a review of the Navy’s Drug Prevention and
              Abuse Program. NAVINSGEN found that although the Navy has a
              widely known “Zero Tolerance” policy and an active drug-testing
              program, drug use among active duty personnel is more prevalent than
              reported. A review of drug testing programs at various activities revealed
              many programs do not properly collect urine samples required for
              accurate testing. From this study, numerous recommendations have been
              implemented or currently being staffed for implementation by the Navy,
              including, changes to urinalysis collection methods, improved reporting
              procedures, and changes to recruiting policies.

LOGISTICS     The challenge of logistics is to reliably provide warfighters with the
              required materiel when they need it to support continuous combat
              effectiveness. To meet this challenge, DoD is continuously transforming
              logistics by assessing best practices and evaluating new concepts that will
              provide joint warfighters with support for all functions. DoD logistics
              support operations for supplies, transportation, and maintenance cost
              more than $90 billion annually. It is a function that involves more than a
              million active duty and reserve personnel and civilian personnel. In
              addition, DoD maintains a vast inventory of ships, aircraft and
              helicopters, ground combat and tactical vehicles, and many additional
              mission support assets, all to support the warfighter.

              An Army Audit Agency audit identified the progress made by the
              Program Executive Office, Soldier, in promptly providing improved




                                    20
Semiannual Report for Transmission to Congress                                               Chapter One




                            equipment to soldiers deployed to Iraq and Afghanistan under the Rapid
                            Fielding Initiative (RFI). Accountability controls used to field the RFI
                            equipment were adequate; however, the Army accountability guidance for
                            the equipment was inconsistent and ineffective.

                            The Air Force Audit Agency issued a report that stated Air Force
                            personnel established inaccurate mission direct additives that directly
                            affected budget development. Approximately 89 percent of the mission
                            direct additives from the Secondary Item Requirements System
                            computation cycle reviewed were inaccurate. Consequently, buy and
                            repair budget requirements were overstated by approximately $63 million
                            for the errors identified.

                            A joint investigation exposed a theft and fencing ring that targeted
                            computers, office equipment and supplies of several Connecticut
                            businesses, including a DoD Top 100 contractor. Losses to the
                            Government resulting from the theft ring’s activities were estimated at
                            $149,000. Additionally, laptop computers that were stolen from the DoD
                            contractor contained U.S. Government data and software. Three members
                            of the theft and fencing ring pled guilty in U.S. District Court and an
                            indictment was handed down for co-conspirators that have not entered
                            pleas. One of the key defendants was sentenced to 30 months
                            incarceration; 36 months supervised release, and ordered to pay $50,000
                            in restitution. Another co-conspirator was sentenced to 1 month
                            confinement; 36 months supervised release, and ordered to pay $25,000 in
                            restitution.

                            A DoD contractor agreed to pay the Government $30,000 as a result of a
                            settlement to resolve claims that they violated the False Claims Act by
                            falsely representing to the Government that beacon transmitter units
                            passed first article tests. The contractor had allegedly not disclosed testing
                            failures as required by the contract.

                            A DoD contractor agreed to pay $65,000 plus damages to resolve
                            allegations that the contractor supplied the Government with non-
                            conforming electrical cable. The investigation disclosed that the
                            contractor supplied 2,000 feet of nonconforming electrical cable that was
                            intended to be used on U.S. nuclear aircraft carriers or submarines.

                            A DoD contractor agreed to pay $1.1 million to resolve allegations that
                            the contractor falsely certified to the Government that they complied with
                            contractual specifications when they overhauled and conducted repair
                            services to hoists and hooks used on military helicopters. The contractor


                                                  21
Chapter One                                   Semiannual Report for Transmission to Congress




                  was also required to return three rescue hoists to serviceable condition.
                  The investigation revealed that the contractor submitted false
                  certifications to the Government, altered serial numbers, and installed
                  used parts while performing these services.

INFRASTRUCTURE    The challenge in managing more than 4,700 military installations and
AND ENVIRONMENT   other DoD sites is to provide modern, habitable, and well-maintained
                  facilities that cover a spectrum from test ranges to housing. Review of
                  Defense and security needs resulted in transformation of a force structure
                  that must be accompanied by a new base structure. This challenge is
                  complicated by the need to minimize spending on infrastructure so funds
                  can instead be used for Defense capability. Unfortunately, DoD has a
                  growing number of obsolete facilities as well as a continuing increase in
                  environmental requirements. Furthermore, the Department needs to
                  efficiently and effectively implement the Base Realignment and Closure
                  (BRAC) 2005 recommendations to eliminate excess capacity and achieve
                  resource savings that can be used for other requirements.

                  Implementing the results of “Transformation through Base Realignment
                  and Closure 2005” will pose a significant challenge for the Department.
                  However, it will also provide an opportunity to eliminate excess physical
                  capacity, to develop a more efficiently organized infrastructure, and to
                  achieve cost savings. As part of the challenge, the Department must
                  efficiently and effectively implement the BRAC Commission’s
                  recommendations to obtain optimal savings with minimal disruption to
                  DoD operations. Until BRAC decisions are final, the Department will not
                  know the full impact of the transformation through Base Realignment and
                  Closure. The outcome will affect the overall reduction of excess capacity,
                  the amount of savings available for other uses, and the required amount of
                  effort for environmental cleanup.

                  For the BRAC 2005 process, the DoD OIG issued 36 final reports and 30
                  memoranda reporting on the quality of BRAC management controls, data,
                  and processes for seven Joint Cross-Service Groups and 29 Defense
                  agencies and organizations. The reporting period ending September 30,
                  2005, culminates the largest effort by the DoD OIG, spanning 2 years and
                  engaging up to 300 staff. The oversight and breadth of BRAC 2005 far
                  exceeded prior BRAC efforts. As a result of the extensive effort and
                  oversight provided for the BRAC 2005 process, the DoD OIG only
                  provided minimal oversight of other infrastructure and environment areas.
                  Extensive coverage of BRAC also impacted DoD OIG coverage of other
                  management challenge areas as well.




                                       22
Semiannual Report for Transmission to Congress                                             Chapter One




                            The Naval Audit Service review of the Navy’s implementation of the FY
                            2005 BRAC process determined that the process complied with statutory
                            guidance and DoD policies and procedures. The review also concluded
                            that recommended installation closures and realignments were identified
                            based on certified data that appeared to be reasonably accurate and
                            complete. The Navy’s Infrastructure Analysis Team took immediate
                            action to make identified improvements in administrative procedures
                            related to the data certification process and correct the certified data in
                            instances where there were differences between source documentation
                            and the provided data call responses and other instances of minor data
                            errors related to excess capacity analysis, military valuation, and scenario
                            analysis phases.

                            An Air Force Audit Agency audit of the Air Force Qualified Recycling
                            Program found that the Air Force met the DoD recycling goal; however,
                            installation recycling managers did not properly manage the program. By
                            minimizing solid waste disposal, the Air Force could reduce costs by
                            $27.6 million over the FYDP and increase diversion rates an average of
                            11 percent. Properly monitoring Defense Reutilization and Marketing
                            Office recyclable material sales could yield $6.8 million in added
                            Air Force revenues over the FYDP.

                            As a result of a settlement agreement to resolve claims asserted in a qui
                            tam complaint, two major Defense contractors agreed to pay the
                            Government $17.75 million. Based on allegations from the qui tam, an
                            investigation found that the contractors engaged in a conspiracy to divide
                            the market and fix prices for carbon fibers in violation of the Sherman
                            Antitrust Act. The carbon fibers were used in various military systems.
                            One of the companies previously pled guilty to obstruction of justice for
                            concealing incriminating documents from the grand jury.

                            A civilian DoD employee received 48 months probation, a $35,000 fine,
                            and forfeited $175,579, after pleading guilty in U.S. District Court to
                            receiving bribes. An investigation found that the DoD employee was paid
                            $117,015 in bribes for providing pricing and bid information to a DoD
                            contractor. An employee of the contractor also pled guilty to bribery and
                            received 12 months probation, $100,000 fine and forfeited $125,000.

                            At the request of the Deputy Assistant Secretary of the Navy, Installations
                            and Facilities, NAVINSGEN conducted a review of the Navy’s
                            implementation of the DOD’s Utilities Privatization initiative.
                            NAVINSGEN found the Navy is aggressively pursing this DOD initiative
                            and had spent over $100 million, with a total projected amount to be spent


                                                  23
Chapter One                                     Semiannual Report for Transmission to Congress




                    between $130 and $150 million. Due to inaccurate assumptions of private
                    sector interest in purchasing DOD utility systems, untimely DOD
                    guidance, restrictive laws and regulations, and lack of a business case
                    analysis, not a single Navy utility system has been privatized using the
                    authorities established for the DOD Utilities Privatization initiative.
                    NAVINSGEN recommended a new strategy with a business case analysis
                    be developed prior to continuing with this initiative.

OTHER SIGNIFICANT   The DoD IG proposed a 5-part "Principled Governance Initiative" (PGI)
ACTIVITIES          to assess and strengthen the Iraqi IG system: facilitate exchange visits
                    between USG and Iraqi IGs; provide senior advisor to the Iraqi Ministry
                    of Defense (MOD) IGs; establish forward and rear liaison supports cells;
                    conduct an assessment of the Iraqi IG system; and assist Iraqis in creating
                    a Principled Governance Academy. In support of PGI objectives, the DoD
                    IG organized and hosted MOD IG’s visit to Washington DC. Representing
                    the 31 Iraqi IGs, the MOD IG presented a speech to the President’s
                    Council on Integrity and Efficiency and requested that the PCIE
                    inspectors general partner with the Iraqi IGs. Also, in support of the PGI
                    objectives, the Inspections and Evaluations staff established forward and
                    rear support cells and deployed a senior advisor to Iraq to assist the MOD
                    establish IG policies and procedures and develop anti-corruption
                    processes. An assessment of the Iraqi IG system is planned for 2nd quarter
                    FY06. The assessment will study US support, capability of the Iraqi IG
                    system, and the status of building self-sustaining IG institutions.

                    The DoD OIG issued reports on the Army, Navy and Air Force audit
                    agencies’ audits of special access programs (SAPs). The three reviews
                    determined that the service audit agencies quality control policies and
                    procedures used on SAPs were in accordance with quality standards
                    established by the Government Auditing Standards and operating
                    effectively. However, the DoD OIG provided suggestions for improving
                    the quality control systems.

                    The DoD IG continues to review closed investigations conducted by the
                    Military Criminal Investigative Organizations into allegations of abuse by
                    U.S. forces against prisoners, detainees, and persons under U.S. control in
                    Iraq, Afghanistan and Guantanamo Bay to ensure the investigations are
                    thorough and timely in accordance with DoD and Service policies and
                    procedures.




                                          24
Semiannual Report for Transmission to Congress                                             Chapter Two




CHAPTER 2 - OFFICE OF THE INSPECTOR GENERAL

DEPUTY INSPECTOR            The Office of the Deputy Inspector General for Auditing (ODIG-AUD)
GENERAL FOR                 conducts audits on all facets of DoD operations. The work results in
AUDITING                    recommendations for reducing costs, eliminating fraud, waste, and abuse
                            of authority, improving performance, strengthening internal controls, and
                            achieving compliance with laws, regulations, and policies. Audit topics
                            are determined by law, by requests from the Secretary of Defense and
                            other DoD leadership, by Hotline allegations, by congressional requests,
                            and by internal analyses of risk in DoD programs.

                            The ODIG-AUD serves as the focal point for Government Accountability
                            Office (GAO) activity in the DoD, and continues to perform follow-up on
                            GAO and DoD OIG report recommendations.

 DoD Audit                  The defense audit community consists of the DoD OIG, the Army Audit
 Community                  Agency, the Naval Audit Service, and the Air Force Audit Agency. As a
                            whole, the organizations issued 311 reports, which identified the
                            opportunity for $944,346,887 in monetary benefits. Appendix A lists
                            reports issued by central DoD internal audit organizations. Appendices B
                            and C, respectively, list DoD OIG reports with potential monetary
                            benefits and statistically summarizes audit follow-up activity.

                            The Defense Contract Audit Agency (DCAA) provided financial advice
                            to contracting officers in 21,712 reports during the period. The contract
                            audits resulted in more than $5.2 billion in questioned costs and funds that
                            could be put to better use. Appendix D contains the details of the audits
                            performed. Contracting officers disallowed $176.7 million of the $844.6
                            million questioned as a result of significant post-award contract audits.
                            The contracting officer disallowance rate of 21 percent represents a
                            significant decrease of the average disallowance rate of 36 percent
                            achieved during the prior two reporting periods. Additional details of the
                            amounts disallowed are found in Appendix E.

 Significant Open           Managers accepted or proposed acceptable alternatives for all of the 131
 Recommendations            DoD OIG audit recommendations made in the last 6 months of fiscal year
                            2005. Many recommendations require complex and time-consuming
                            actions, but managers are expected to make reasonable efforts to comply
                            with agreed-upon implementation schedules. Although most of the 864
                            open actions being traced in the DoD OIG follow up systems are on track
                            for timely implementation, there were 214 reports more than 12 months
                            old, dating back as far as 1991, for which management has not completed



                                                  25
Chapter Two                                                          Semiannual Report for Transmission to Congress




                                  actions to implement the recommended improvements.1 Significant open
                                  recommendations that have yet to be implemented include the following:

                                         •    Recommendations made in 1997 and subsequent years to make
                                              numerous revisions to the DoD Financial Management
                                              Regulations, clarify accounting policy and guidance, establish a
                                              single repository for business system information, and develop a
                                              plan for performance characteristics and training requirements
                                              for the DoD financial management workforce have resulted in
                                              initiatives that are underway to correct financial systems
                                              deficiencies and enable the Department to provide accurate,
                                              timely, and reliable financial statements.

                                         •    Recommendations from multiple reports in the high-risk area of
                                              personnel security. These include: development of a
                                              prioritization process for investigations; incorporate Federal
                                              guidance regarding country codes in the Defense Clearance
                                              Investigations Index; establishment of minimum training and
                                              experience requirements and a certification program for
                                              personnel granting security clearances, implementation of a peer
                                              review capability; issue policy on the access by all contractors,
                                              including foreign nationals, to unclassified but sensitive DoD IT
                                              Systems; development of a mechanism for all agencies to track
                                              cases submitted to OPM; establish policy on access reciprocity
                                              and a single, integrated database for Special Access Programs.

                                         •    Recommendations made in 2004 to define network centric
                                              warfare and its associated concepts; formalize roles,
                                              responsibilities, and processes for the overall development,
                                              coordination, and oversight of DoD network centric warfare
                                              efforts; and develop a strategic plan to guide network centric
                                              warfare efforts and monitor progress. Applicable DoD guidance
                                              is being updated to reflect definitions that have been developed.

                                         •    Recommendations were made in 2004 to clarify guidance on the
                                              differences between force protection and antiterrorism in DoD

1. Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If the head of the agency fails to
  complete final action with regard to a management decision within the 12-month period, the inspector general concerned
  shall identify the matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3) of the Inspector
  General Act of 1978 (5 U.S.C. App.) until final action on the management decision is completed.” A list of DoD OIG
  reports on which management decisions have been made but final action has not been taken is continued in the Secretary
  of Defense Report issued pursuant to section 5(a) of the Inspector General Act.




                                                             26
Semiannual Report for Transmission to Congress                                             Chapter Two




                                      policies and procedures and to ensure that a force protection
                                      program has been established throughout the U.S. Pacific
                                      Command.

                                  •   Recommendations made in 2003 and 2004 regarding completion
                                      of the information security certification and accreditation
                                      process for various DoD systems in accordance with the existing
                                      DoD Instruction 5200.40, DoD Information Technology
                                      Security Certification and Accreditation Process (DITSCAP).
                                      These actions need to be completed to address requirements of
                                      the Federal Information Security Act (FISMA). The revision to
                                      DITSCAP is in formal coordination as DoD Instruction 8510.bb,
                                      DoD Information Assurance Certification and Accreditation
                                      Process (DIACAP).

                                  •   Recommendations made in a 2004 report to develop and deliver
                                      a contract compliant C-130J aircraft and to increase amounts
                                      withheld to motivate the contractor to deliver an aircraft that
                                      meets contractual requirements. Contract re-negotiation and
                                      testing are currently underway.

                                  •   Corrective actions on 160 recommendations, contained in 87
                                      audit reports, to implement policy changes in 76 policy
                                      issuances, such as DoD Directives, Instructions and Regulations,
                                      the Federal Acquisition Regulation (FAR), and the Defense FAR
                                      Supplement have not been completed. Final implementation and
                                      issuance of the recommended revisions has been delayed by the
                                      extensive time needed to revise and coordinate policy changes.

DEPUTY INSPECTOR            The Office of the Deputy Inspector General for Investigations (ODIG-
GENERAL FOR                 INV) comprises the criminal and the administrative investigative
INVESTIGATIONS              components of the DoD OIG. The Defense Criminal Investigative Service
                            (DCIS) is the criminal investigative component of the DoD OIG. The non-
                            criminal investigative units include the Directorate for Investigations of
                            Senior Officials (ISO), the Directorate for Military Reprisal Investigations
                            (MRI), and the Directorate for Civilian Reprisal Investigations (CRI).

 Defense Criminal           The Defense Criminal Investigative Service (DCIS) is tasked with the
 Investigative              mission to protect America’s warfighters by conducting investigations in
 Service                    support of crucial national defense priorities. The DCIS conducts
                            investigations of suspected major criminal violations focusing mainly on
                            terrorism, product substitution/defective parts, cyber crimes/computer
                            intrusion, illegal technology transfer, and other categories of fraud


                                                  27
Chapter Two                                                        Semiannual Report for Transmission to Congress




                                 including bribery, corruption, and major theft. The DCIS also promotes
                                 training and awareness in all elements of the DoD regarding the impact of
                                 fraud on resources and programs by providing fraud awareness
                                 presentations.

 Defense Criminal                The Defense Criminal Investigative Organizations (DCIOs) are the
 Investigative                   Defense Criminal Investigative Service (DCIS), a component of the OIG
 Organizations                   DoD; the U.S. Army Criminal Investigation Command (USACIDC); the
                                 Naval Criminal Investigative Service (NCIS); and the Air Force Office of
                                 Special Investigations (AFOSI) support each of the Secretary of Defense
                                 Management Challenges. The DCIOs protect the military and civilian
                                 men and women of the Department by combating crimes, both domestic
                                 and overseas, with highly trained special agents, forensic experts,
                                 analysts, and support personnel. Examples of the DCIO’s mission
                                 initiatives and investigative accomplishments are detailed in Chapter 1
                                 under the nine management challenges.

                                 Monetary recoveries of approximately $477 million resulted from the
                                 investigative efforts of the Defense Criminal Investigative Organizations
                                 (DCIO)1, and are displayed by major categories in Figure 2 (the following
                                 page). Figure 3 (the following page) displays the total companies and
                                 individuals indicted and convicted is 733 and 686, respectively. Figure 1
                                 (below) displays the number of companies and individuals suspended or
                                 debarred for this period were 8 and 22, respectively.

                                Suspended -       Suspended -        Debarred -        Debarred -
                                Companies          Individuals       Companies         Individuals
        Terrorism                   0                   0               0                   0
        Procurement                 2                   2               12                  7
        Health Care Fraud           0                   1               0                   0
        General Crimes              0                   0               0                   0
        Drug Related                0                   0               0                   0
        Public Corruption           0                   2               0                   0
        Other                       0                   1               1                   2



                                                     Figure 1




1. Except for the Navy Criminal Investigative Service (NCIS), the information provided in this section by the DCIOs is for
  this reporting period. Due to converting to a new data system, the NCIS data covers all of FY 2005.




                                                           28
Semiannual Report for Transmission to Congress                                               Chapter Two




                       Figure 2                                              Figure 3



 Directorate for            The IG DoD Directorate for Investigations of Senior Officials conducts
 Investigations of          investigations into allegations against senior military and civilian officials
 Senior Officials           and performs oversight of senior official investigations conducted by the
                            Military Departments.

                            Figures 4 and 5 (on the following page) show results of activity on senior
                            official cases during the last 6 months of FY 2005. On September 30,
                            2005, there were 236 ongoing investigations into senior official
                            misconduct throughout the Department, representing little change from
                            March 31, 2005, when we reported 242 open investigations. Over the past
                            6 months, the Department closed 213 senior official cases, of which 38
                            (18 percent) contained substantiated allegations.




                                                  29
Chapter Two                                                                           Semiannual Report for Transmission to Congress



                                         D o D T o t a l S e n io r O f f ic ia l C a s e s
                                                 FY 2000 - FY 2005

               60 0                                5 78

                                                                  5 03
                                            48 8                                                                  48 9
               50 0    455                                               46 0
                                                                                      46 6                 4 72                       4 68
                                                                                             4 27                              43 0
                             40 2
               40 0

               30 0

               20 0
                                                          89                                                                                 86
               10 0                 69                                          70
                                                                                                    57
                                                                                                                         71



                 0
                        F Y00                FY01                  F Y 02              FY03                  F Y04                 FY05

                                                   O p en ed             C lo s ed           S u b stan tia ted

                       T h is c h a r t s h o w s th e to ta l n u m b e r o f s e n io r o f f ic ia l in v e s t ig a ti o n s
                                     c o n d u c te d in D o D o v e r th e p a s t s i x f is c a l y e a r s .



                                                                           Figure 4



              Nature of Substantiated Allegations Against Senior Officials
                                During 2nd Half FY 05


                                                               Other Misconduct
          Misuse/Waste of                                            15%                                 Failure to Act
          Gov't Property                                                                                      7%
               18%




                                                                                                                                              Abuse of
                                                                                                                                              Authority
                                                                                                                                               29%


               Improper Personnel                                 Sexual Harassment/
                     Action                                           Improper
                      17%                                            Relationship
                                                                         14%




                                                                           Figure 5




                                                                                30
Semiannual Report for Transmission to Congress                                            Chapter Two




 Directorate for            The DoD OIG Directorate for Military Reprisal Investigations (MRI)
 Military Reprisal          conducts investigations and performs oversight of investigations
 Investigations             conducted by the Military Department Inspectors General (IGs). Those
                            investigations pertain to:

                                  •   Allegations that unfavorable actions were taken against
                                      members of the Armed Forces, DoD non-appropriated fund
                                      employees, and Defense contractor employees in reprisal for
                                      making protected communications.

                                  •   Allegations that members of the Armed Forces were referred for
                                      mental health evaluations without being afforded the procedural
                                      rights prescribed in the DoD Directive and Instruction.

 Whistleblower              During the reporting period, MRI and the Military Department IGs
 Reprisal Activity          received 350 complaints of whistleblower reprisal. We closed 246 reprisal
                            cases during this period. Of those 246 cases, 182 were closed after
                            preliminary analysis determined further investigation was not warranted
                            and 64 were closed after investigation. Of the 64 cases investigated, 13
                            (20%) contained one or more substantiated allegations of whistleblower
                            reprisal.

                            The MRI and the Military Departments currently have 454 open cases
                            involving allegations of whistleblower reprisal.

 Examples of                An Air Force senior airman alleged her supervisor recommended denial
 Substantiated              of reenlistment and removed her from her position in reprisal for her
 Whistleblower              sexual harassment complaint against the flight commander. Air Force
 Reprisal Cases             investigation substantiated the allegations and the flight commander was
                            verbally counseled.

                            An Army National Guard sergeant alleged his executive officer and
                            commander issued an Article 15 and unfavorable noncommissioned
                            officer evaluation report (NCOER) to him in reprisal for his complaint
                            that a soldier attempted to engage in homosexual activity. Investigation
                            substantiated that the Article 15 and NCOER were issued in reprisal for
                            the sergeant’s protected communication. In addition, the investigation also
                            substantiated that two other soldiers were issued unfavorable NCOERs by
                            the same responsible officials in reprisal for their protected
                            communications. Corrective action is pending.

                            A Navy lieutenant commander alleged his commanding officer issued him
                            a non-punitive letter of caution and unfavorable fitness report in reprisal


                                                  31
Chapter Two                                         Semiannual Report for Transmission to Congress




                        for filing gross mismanagement complaints against the commanding
                        officer. The Navy investigation substantiated the allegations against the
                        commanding officer. The commanding officer was issued a non-punitive
                        letter of caution as corrective action.

                        A former employee of a DoD contractor alleged she was terminated in
                        reprisal for reporting security violations by the company to the
                        government. Our investigation substantiated the employee’s allegation.
                        Corrective action against the contractor is pending with Air Force
                        officials.

 Referrals for Mental   We closed 14 cases involving allegations of improper referrals for mental
 Health Evaluations     health evaluations during the reporting period. In six (43%) of those
                        cases, we substantiated that command officials and mental health care
                        providers failed to follow the procedural requirements for referring
                        Service members for mental health evaluations under DoD Directive
                        6490.1, “Mental Health Evaluations of Members of the Armed Forces.”
                        We did not substantiate these mental health referrals were taken in reprisal
                        for Service members’ protected communications.

 Directorate for        The DoD OIG Directorate for Civilian Reprisal Investigations (CRI) was
 Civilian Reprisal      established in January 2004, to develop protections for civilian-employee
 Investigations         relaters of fraud, waste, abuse of authority, and mismanagement in the
                        DoD. The CRI conducts investigations, coordinates personnel
                        management remedies and reaches out to federal and non-federal agencies
                        involved with whistleblower affairs.

DEPUTY INSPECTOR        The Office of the Deputy Inspector General for Intelligence (ODIG-
GENERAL FOR             INTEL) audits, reviews, evaluates, and monitors the programs, policies,
INTELLIGENCE            procedures, and functions of the DoD Intelligence Community and the
                        intelligence-related activities within the DoD Components, primarily at
                        the DoD, Service, and Combatant Command levels, ensuring that
                        intelligence and intelligence-related resources are properly, effectively,
                        and efficiently managed. The ODIG-INTEL also conducts oversight of
                        Service and Defense agency reviews of security and counterintelligence
                        within all DoD test and laboratory facilities.

 Intelligence           The DoD OIG, the IGs of the Defense Intelligence Agency, National
 Community              Geospatial-Intelligence Agency, National Reconnaissance Office, and
                        National Security Agency; the Air Force Audit Agency; and the Defense
                        Contract Audit Agency completed 106 intelligence-related and other
                        classified and sensitive reports. The reports are categorized into the areas




                                              32
Semiannual Report for Transmission to Congress                                            Chapter Two




                            shown in Figure 6 below. A listing and highlights of the 105 reports can
                            be found in the Classified Annex to this report.

                                IG and Audit Agency Reviews (U)
                                                     Defense      Military
  DoD Management Challenge Area         DoD OIG      Agencies   Departments                  Total
Joint Warfighting and Readiness            0            28           1                        29
Homeland Defense                           2             0           0                        2
Human Capital                              1             4           0                         5
Information Technology Management          2             7           2                        11
Acquisition Processes and Contract         0             7           0                        7
Management
Financial Management                       3             4           2                         9
Health Care                                0             0           0                         0
Logistics                                  0             2           0                         2
Infrastructure and Environment             7             2           0                         9
Other Reports                              4            27           1                         32

TOTAL REPORTS ISSUED                             19                   80       6              106
                                                           Figure 6


                            The Intelligence Community Inspectors and Auditors General continued
                            to coordinate and share information to improve the effectiveness and
                            efficiency of oversight of DoD intelligence activities. The Intelligence
                            Community Inspectors General Forum serves as a mechanism for sharing
                            information among inspectors general whose duties include audit,
                            evaluation, inspection, or investigation of programs and operations of
                            Intelligence Community elements. The Information Assurance Working
                            Group, established by the Intelligence Community Inspectors General
                            Forum in 1999, monitors and evaluates the status of management policies
                            and oversight of efforts to protect the Intelligence Community systems.
                            Within DoD, the Joint Intelligence Oversight Coordination Group
                            comprises senior representatives from the Office of the Secretary of
                            Defense, the inspectors general of the Defense intelligence agencies, and
                            military department audit, evaluation, and inspection organizations. The
                            objectives of this group are to improve the effectiveness and efficiency of
                            DoD oversight of intelligence activities by identifying areas needing more
                            emphasis and deconflicting oversight programs. See the Classified Annex
                            to this report for information on meetings of these groups.




                                                      33
Chapter Two                                     Semiannual Report for Transmission to Congress




DEPUTY INSPECTOR    The Office of the Deputy Inspector General for Inspections and Policy
GENERAL FOR         (ODIG-I&P) conducts inspections and evaluations, manages the DoD
INSPECTIONS AND     Hotline, and provides the oversight and policy for Audit and Investigative
POLICY              activities within DoD, as required by Section 8 of the IG Act.

 Inspections and    The Inspections and Evaluations Directorate within the Office of the
 Evaluations        Deputy Inspector General for Inspections and Policy promotes positive
 Directorate        change by identifying opportunities for performance and efficiency
                    improvements in DoD programs and operations. The Directorate conducts
                    objective and independent customer-focused management and program
                    inspections addressing areas of interest to Congress and the Department
                    of Defense.

 Audit Policy and   In accordance with the Inspector General Act of 1978, as amended, the
 Oversight          Office of Assistant Inspector General for Audit Policy and Oversight
 Directorate        (APO), provides policy direction and oversight for audits performed by
                    over 6,500 DoD auditors in 24 DoD organizations, ensures appropriate
                    use of non-federal auditors and their compliance with auditing standards
                    and ensures that contracting officials comply with statutory and regulatory
                    requirements when resolving contract audit report recommendations in
                    accordance with DoD Directive 7640.2, “Policy for Follow-up on
                    Contract Audit Reports.” During the reporting period, APO issued six
                    reports that addressed the quality of audits and the effectiveness of
                    contracting officer actions. APO also referred a Certified Public
                    Accounting firm for substandard audit work to the American Institute of
                    Certified Public Accountants . The reports are the following:

                         •   DoD Hotline Allegations Concerning Postaward Audits at the
                             Defense Contract Audit Agency Boeing Huntington Beach
                             Resident Office (D-2005-6-005, May 4, 2005)

                         •   Review of Allegations Concerning Defense Contract
                             Management Agency Boeing Seattle Forward Pricing Rates
                             (D2005-6-006, (FOR OFFICIAL USE ONLY) ( May 17, 2005)

                         •   Quality Control Review of McGladrey & Pullen LLP Office of
                             Management and Budget Circular A-133 Audit Report of the
                             Analytic Services Inc., Fiscal Year Ended September 30, 2002
                             (D-2005-6-007, August 25, 2005)

                         •   Quality Control Review of Army Audit Agency’s Special
                             Access Program Audits (D-2005-6-008, August 25, 2005)




                                         34
Semiannual Report for Transmission to Congress                                           Chapter Two




                                  •   Quality Control Review of Air Force Audit Agency’s Special
                                      Access Program Audits (D-2005-6-009, August 26, 2005)

                                  •   Quality Control Review of Naval Audit Service’s Special
                                      Access Program Audits (D-2005-6-010, September 2, 2005)

                            APO has been instrumental in providing suggestions to the American
                            Institute of Certified Public Accountants (AICPA), President’s Council on
                            Integrity and Efficiency (PCIE), regulatory council for the Defense
                            Federal Acquisition Regulation Supplement on issues related to defense
                            acquisition, and providing training. Specifically APO:

                                  •   Commented on AICPA Statement of Auditing Standards No. 96,
                                      “Audit Documentation.”

                                  •   Commented on PCIE “Guide for Conducting External Peer
                                      Reviews of the Audit Operations of Offices of Inspector
                                      General.”

                                  •   Commented on DFARS cases “Contract Termination,” “Labor
                                      Laws,” “Contractor Insurance/Pension Reviews,” “Competition
                                      Requirements for Federal Supply Schedules and Multiple Award
                                      Contracts,” “Earned Value Management Systems,” Contract
                                      Performance of Acquisition Functions Closely Associated with
                                      Inherently Governmental Functions,” and “Advisory and
                                      Assistance Services.”

                                  •   Presented at the Defense Contract Audit Agency OMB Circular
                                      A-133 Training Workshop an update on the National Sampling
                                      Initiative and improvements needed in their A-133 audits.

                                  •   Presented a two day workshop on the contract audit followup
                                      program.

                                  •   Presented training on conducting external peer reviews in
                                      accordance with the PCIE Guide for Conducting External Peer
                                      Reviews of Audit Operations to personnel from the service audit
                                      agencies and the OIG DoD.

 Investigative Policy       The Investigative Policy and Oversight Directorate (IPO) evaluates the
 and Oversight              performance and develops/implements policy for the DoD law
 Directorate                enforcement community and the non-criminal investigative offices of the
                            DoD. The IPO also manages the IG Subpoena Program for the Defense


                                                 35
Chapter Two                                  Semiannual Report for Transmission to Congress




                 Criminal Investigative Organizations (DCIOs) and administers the DoD
                 Voluntary Disclosure Program, which allows contractors a means to
                 report potential civil or criminal fraud matters.

 DoD Hotline     The DoD OIG Hotline continues its primary mission of providing a
                 confidential and reliable means for DoD civilian and contractor
                 employees, military service members, and the public to report fraud,
                 waste, mismanagement, abuse of authority, trafficking in persons, and
                 leaks of classified information for the Department of Defense. During this
                 reporting period (1 Apr 05 through 30 Sep 05) the DoD OIG Hotline
                 received 6,330 contacts from the public, members of the DoD community,
                 the GAO, and the Congress. The Hotline initiated 933 investigations to
                 include 49 Congressional inquiries, 77 GAO inquiries, as well as 282
                 reprisal complaints and 90 allegations pertaining to senior DoD officials
                 that the Hotline processed for preliminary analysis by ODIG
                 Investigations. There were 1,037 cases closed during the reporting period
                 that resulted in $996,786.00 being returned to the Government.

OFFICE OF        The Office of Communications and Congressional Liaison (OCCL) is a
COMMUNICATIONS   staff element of the immediate Office of the Inspector General. This office
AND              supports the DoD OIG by serving as the contact for communications to
CONGRESSIONAL    and from Congress, and by serving as the DoD OIG Public Affairs Office.
LIAISON          The OCCL also includes the Freedom of Information Act/Privacy Act
                 Office and Strategic Planning. In addition, the OCCL provides staff
                 support and serves as the liaison for the DoD OIG to the President’s
                 Council on Integrity and Efficiency and the Defense Council on Integrity
                 and Efficiency (DCIE). The DoD IG established the DCIE in 2002 to
                 ensure effective coordination and cooperation among oversight agencies
                 within the DoD.

 Comments on     Section 4(a) of the Inspector General Act requires the Inspector General
 Legislation /   “to review existing and proposed legislation and regulations relating to
 Testimony       the program and operations of [the Department of Defense]” and to make
                 recommendations “concerning the impact of such legislation or
                 regulations on the economy and efficiency in the administration of
                 programs and operations administered or financed by [the Department] or
                 the prevention and detection of fraud and abuse in such programs and
                 operations.” The DoD OIG routinely receives legislation for review that
                 has been referred to the Department of Defense for comment. During the
                 current reporting period, the DoD OIG commented on the following
                 legislative items:




                                       36
Semiannual Report for Transmission to Congress                                             Chapter Two




                                  •   H.R. 1815, National Defense Authorization Act for FY 2006,
                                      section 303, Operation and Maintenance, Office of Inspector
                                      General. As passed by the House of Representatives, this
                                      provision would reduce the DoD OIG appropriation by $35.2
                                      million. The DoD OIG opposed the reduction because it would
                                      require a reduction in force of DoD OIG personnel, which would
                                      significantly impact the ability of the DoD OIG to perform its
                                      roles and responsibilities as mandated in the Inspector General
                                      Act of 1978.

                                  •   S. 1042, National Defense Authorization Act for FY 2006,
                                      section 328. As reported by the Senate Armed Services
                                      Committee, this provision would prohibit the obligation or
                                      expenditure of funds for the purposes of financial management
                                      improvement activities relating to the preparation, processing, or
                                      auditing of financial statements until the Department submits a
                                      comprehensive plan outlining intended actions to the
                                      congressional defense committees. The DoD OIG opposed this
                                      provision because it would have a negative impact on DoD
                                      efforts to provide accurate and reliable financial data and the
                                      language would prevent the Department’s auditors from
                                      performing even the minimal work to disclaim an audit opinion
                                      on the Department's Financial Statements.

                                  •   S. 1042, National Defense Authorization Act for FY 2006,
                                      section 823. As reported by the Senate Armed Services
                                      Committee, this provision would require the establishment of a
                                      risk assessment team chaired by the IG to review and report on
                                      the contracting systems and internal controls of the DoD and
                                      assess areas of vulnerability of Defense contracts to fraud,
                                      waste, and abuse. The DoD OIG recommended, due to the broad
                                      scope of the report, that the time frame for completing the
                                      requested report be extended.

                            Additionally, the DoD OIG is given the opportunity to provide
                            information to Congress by participating in congressional hearings.

                            On April 6, 2005, the Honorable Joseph E. Schmitz, then-Inspector
                            General, testified before the Airland Subcommittee, Senate Committee on
                            Armed Services regarding contracting for and performance of the C-130J
                            aircraft. The IG’s testimony centered on the audit of “Contracting for and
                            Performance of the C-130J Aircraft,” issued July 23, 2004. The audit
                            found that the Air Force used an unjustified commercial item acquisition


                                                  37
Chapter Two                               Semiannual Report for Transmission to Congress




              strategy to acquire the C-130J aircraft and fielded aircraft that did not
              meet contract specifications or perform their intended mission. The IG
              also informed the subcommittee about additional work the DoD OIG is
              performing on commercial contracting practices for procuring defense
              systems.

              On April 14, 2005, Mr. Schmitz testified before the Airland
              Subcommittee, Senate Committee on Armed Services regarding Air Force
              acquisition oversight. The IG’s testimony was focused on the audit
              “Acquisition of the Boeing KC-767A Tanker Aircraft,” issued March 29,
              2004 (Report No. D-2004-064). The audit found that the Boeing KC-
              767A Tanker Program did not meet the statutory definition of a
              commercial item. In addition, the commercial item procurement strategy
              did not provide the Air Force with sufficient cost or pricing data to make
              decisions for the Boeing KC-767A Tanker Program and did not
              demonstrate the level of accountability needed to conclude that the prices
              negotiated represent a fair expenditure of DoD funds. The audit also
              found that the Air Force, by using Section 8159 of the DoD
              Appropriations Act for FY 2002 to justify its informal acquisition
              strategy, did not demonstrate best business practices and did not comply
              with statutory provisions for testing. The IG also commented on the
              Defense Criminal Investigative Service involvement in the investigations
              of Ms. Darleen Druyun, the former Principal Deputy Assistant Secretary
              of the Air Force for Acquisition and Management and Michael Sears, the
              former Boeing Chief Financial Officer, both of whom pled guilty to
              Federal crimes associated with conflicts of interest.

              On June 7, 2005, Mr. Schmitz and Mr. Thomas Gimble, Deputy Inspector
              General, testified before the Senate Armed Services Committee regarding
              the management accountability review of the Boeing KC-767A Tanker
              Progr am. The I G’s te st i mony ce nt e red on t he “Mana ge me nt
              Accountability Review of the KC-767A Tanker Program” issued May 13,
              2004 (Report No. OIG-2004-171). The review found that a number of
              senior DoD and Air Force officials acted as if Section 8159 of the FY2002
              Appropriations Act had waived various legal requirements--statutory
              checks and balances--that it had not. In addition the review concluded that
              the system of management internal controls was either not in place or not
              effective because the existing acquisitions procedures were not followed
              in the proposed lease of the Boeing KC767A tanker aircraft. Mr. Schmitz
              also submitted a publicly releasable version of the report to be included as
              part of the record.




                                    38
Semiannual Report for Transmission to Congress                                            Chapter Two




                            On September 28, 2005, Mr. Thomas F. Gimble, Acting Inspector
                            General, testified before the Subcommittee on Oversight and
                            Investigations, House Committee on Energy and Commerce regarding the
                            DoD OIG audit and investigative efforts regarding the Hurricane Katrina
                            relief. The Acting IG’s testimony detailed the DoD OIG coordination with
                            all IGs through the PCIE Homeland Security Roundtable on Hurricane
                            Katrina to ensure effective use of DoD oversight resources in the relief
                            and recovery efforts. Specifically for DoD, the DoD OIG, the Army Audit
                            Agency, the Naval Audit Service, the Air Force Audit Agency, the
                            Defense Contract Audit Agency, and the Defense criminal investigative
                            organizations will employ a cadre of auditors, investigators, and
                            inspectors who will provide immediate and professional oversight of DoD
                            contracts, grants, and operations related to Hurricane Katrina relief and
                            recovery efforts. The Acting Inspector General detailed the current and
                            planned oversight efforts for Hurricane Katrina relief and recovery and
                            assured the subcommittee that the DoD OIG effort will be on a “real-
                            time” basis and that feedback would be provided as issues were identified.

                            On September 29, 2005, Mr. Thomas F. Gimble, Acting Inspector
                            General, testified before the Permanent Subcommittee on Investigations,
                            Senate Committee on Homeland Security and Governmental Affairs
                            regarding the management of the Defense Travel System. The Acting IG’s
                            testimony centered on the audit of the “Allegations to the Defense Hotline
                            on the Management of the Defense Travel System,” issued July 1, 2002.
                            The audit found that the DoD should have managed the Defense Travel
                            System Program as a major automated information system program and
                            ensured that it had met requirements of the Clinger-Cohen Act and DoD
                            acquisition and security policies. The Acting IG also informed the
                            subcommittee that the DoD OIG initiated work to determine material
                            differences between the original Defense Travel System and the 2002
                            contract renegotiation and to complete a cost benefit evaluation.

                            The DoD OIG has been working with the Under Secretary of Defense for
                            Acquisition, Technology, and Logistics (USD (AT&L)) to amend the
                            Defense Federal Acquisition Regulation Supplement (DFARS). The
                            proposed change would implement DoD policy prohibiting any activities
                            on the part of DoD contractor employees that support or promote
                            trafficking in persons. The proposed change includes a clause for use in
                            contracts requiring performance outside the United States. The proposed
                            clause would require the contractor to establish policy and procedures for
                            combating trafficking in persons and to notify the contracting officer of
                            any violations and the corrective action taken.




                                                 39
Chapter Two                              Semiannual Report for Transmission to Congress




              The DoD OIG also regularly reviews new and revised regulations
              proposed by the Department of Defense. During this reporting period, the
              DoD OIG reviewed 120 draft issuances or re-issuances of DoD directives,
              instructions, manuals, and policy guidance.




                                   40
Semmiannual Report for Transmission to Congress                                                     Appendix A


                          APPENDIX A*
  REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS

Excludes base level reports issued by the Air Force Audit Agency and memorandum reports
and consulting reports issued by the Army Audit Agency.

Copies of reports may be obtained from the appropriate issuing office by calling:

         DoD OIG                                               Army Audit Agency
         (703) 604-8937                                        (703) 681-9863
         http://www.dodig.mil                                  http://www.hqda.army.mil/aaaweb

         Naval Audit Service                                   Air Force Audit Agency
         (202) 433-5525                                        (703) 696-7904
         http://www.hq.navy.mil/NavalAudit                     www.afaa.hq.af.mil


              Summary of Number of Reports by Management Challenge Area
                          April 1, 2005 – September 30, 2005


                                              DoD OIG Military Depts.           Total
  Joint Warfighting and Readiness                 1               13             14
  Homeland Defense                                1                3               4
  Human Capital                                    -               29            29
  Information Technology Management              12               12             24
  Acquisition Processes/Contract                  7                41            48
  Management
  Financial Management                           19                72             91
  Health Care                                     1                6               7
  Logistics                                        -               32            32
  Infrastructure and Environment                   -              25             25
  Base Realignment and Closure                   26                7             33
  Other                                           1                3               4
    Total                                        68               243            311
  For information on intelligence-related reports, including those issued by other
  Defense agencies, refer to the classified annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
   5(a)(6) (See Appendix B)




                                                       41
Appendix A                                            Semiannual Report for Transmission to Congress

                                    Air Force Audit Agency
 JOINT WARFIGHTING                                                    HUMAN CAPITAL
                                    F-2005-0003-FD3000
 AND READINESS
                                    Information Operations
                                    Personnel Data Verification       Army Audit Agency
 DoD OIG                            (04/1/2005)
                                                                      A-2005-0137-FFF Followup
 D-2005-085 DoD Execution of        F-2005-0004-FD3000 Air and        Audit of Delayed Entry Program
 the Warsaw Initiative Program      Space Expeditionary Force         Management, Deputy Chief of
 (07/01/05)                         Management (05/02/2005)           Staff, G-1 (04/14/05)

 Army Audit Agency                  F-2005-0005-FD3000                A-2005-0162-FFF Material
                                    Individual Deployment Process     Weakness Manpower
 A-2005-0212-ALA Followup                                             Requirements Determination,
                                    (06/13/2005)
 Audit of the Joint Contingency                                       (04/27/05)
 Force Advanced Warfighting         F-2005-0006-FD3000
 Experiment (06/22/05)              Sustainment of Nuclear Assets     A-2005-0167-FFF Followup
                                    (07/14/2005)                      Audit of Mobilization and Pay
 A-2005-0219-FFH Total Army                                           Record Discrepancies in the
 Analysis Process: Tactical         F-2005-0013-FD4000 Mission        Reserve Components (05/06/05)
 Medical Requirements, U.S.         Readiness Training Quota
 Army Center for Army               (09/13/2005)                      A-2005-0189-FFE Contractor
 Analysis, Fort Belvoir, Virginia                                     Aircrew Safety (05/17/05)
 (06/30/05)                         F-2005-0007-FD3000 Weather
                                    Operations Metrics                A-2005-0190-ALT Personnel
 A-2005-0259-FFE Followup           (09/27/2005)                      Management and Training,
 Audit of Support for                                                 California Army National Guard
 Nonmedical Chemical and                                              (05/19/05)
 Biological Defensive               HOMELAND
 Equipment, Aberdeen Proving                                          A-2005-0183-FFF Reserve
 Ground, Maryland (08/19/05)        DEFENSE                           Component Duty Military
                                                                      Occupational Specialty
 A-2005-0285-FFF Reserve                                              Qualification and Officer Basic
 Component Readiness                DoD OIG
                                                                      Course Training Requirements
 Reporting, U.S. Army Reserve       D-2005-043 Interagency            (06/15/05)
 Command (09/27/05)                 Review of the Export Licensing
                                    Process for Chemical and          A-2005-0207-FFF Followup
 Naval Audit Service                Biological Commodities (FOR       Audit of Military Training
 N-2005-0041 Contracts for          OFFICIAL USE ONLY)                Service Support-Pilot Test, Fort
 Studies and Levels of Effort at    (6/10/05)                         Lee, Virginia, (06/29/05)
 Naval Sea Systems Command
                                    Army Audit Agency                 A-2005-0220-ALE Followup
 (04/20/05)
                                                                      Audit of Controls Over Morale,
                                    A-2005-0150-FFE Contracting       Welfare, and Recreation
 N-2005-0052 Marine Corps           for Installation Preparedness
 Reserve Activation Savings                                           Equipment Downrange (Bosnia
                                    (04/13/05)                        and Kosovo), U.S. Army,
 Model Validation (07/22/05)
                                                                      Europe and Seventh Army
                                    A-2005-0204-FFC Security of
 N-2005-0054 Military-                                                (07/14/05)
                                    Civil Works Water Resources
 Essentiality of Marine Corps       Infrastructure, U.S. Army Corps
 Full-Time Reservists (08/23/05)                                      A-2005-0246-ALE Followup
                                    of Engineers (06/23/05)           Audit of Living Quarters
                                                                      Allowance, U.S. Army, Europe
                                    Air Force Audit Agency            and Seventh Army (07/29/05)
                                    F-2005-0008-FC4000
                                    Demilitarization Process
                                    (09/08/2005)



                                                 42
Semiannual Report for Transmission to Congress                                            Appendix A


A-2005-0191-FFF Advanced           F-2005-0008-FD4000 Special        D-2005-069 Audit of the
Individual Training Courses,       Duty Assignment Pay               General and Application
U.S. Army Intelligence Center,     (06/21/2005)                      Controls of the Defense Civilian
Fort Huachuca (08/09/05)                                             Pay System (FOR OFFICIAL
                                   F-2005-0009-FD4000                USE ONLY) (05/13/05)
A-2005-0131-FFF Followup           Hazardous Duty Incentive Pay -
Review of Distance Learning        Parachutists and Non-Rated        D-2005-083 Reporting of DoD
Facilities and Hardware            Aircrew (06/23/2005)              Capital Investments for
Acquisition Structure (09/09/05)                                     Information Technology in
                                   F-2005-0012-FB1000 Financial      Support of the 2006 Budget
A-2005-0274-FFG Soldier            Management Activities             Submission (06/10/05)
Allowances for the Active          (06/24/2005)
Component (09/19/05)                                                 D-2005-092 Report on the
                                   F-2005-0010-FD4000 Military       Defense Property
A-2005-0314-ALE Followup           Equal Opportunity (08/09/2005)    Accountability System Controls
Audit of Child Care Operations,                                      in Operation and Test of
U.S. Army Installation             F-2005-0011-FD4000 Follow-        Operating Effectiveness for the
Management Agency, Europe          up Audit, Air Force Aid Society   Period September 1, 2004
Region (09/22/05)                  (08/09/2005)                      through April 30, 2005
                                                                     (07/07/05)
Naval Audit Service                F-2005-0007-FD2000 Air
                                   Force Morale, Welfare, and        D-2005-094 Proposed DoD
N-2005-0055 Navy Manpower          Recreation Advisory Board
Requirement Process-Surface                                          Information Assurance
                                   Corporate Governance              Certification and Accreditation
Ships (08/25/05)                   (09/08/2005)                      Process (FOR OFFICIAL USE
Air Force Audit Agency                                               ONLY) (07/21/05)
                                   F-2005-0012-FD4000 Reserve
F-2005-0003-FD1000 Family          Component Family Care Plans       D-2005-093 Technical Report
Member Programs Personnel          (09/09/2005)                      on the Standard Finance System
Background Investigations                                            (FOR OFFICIAL USE ONLY)
                                   F-2005-0014-FD4000 New
(04/01/2005)                                                         (08/17/05)
                                   Officer Education (9/23/2005)
F-2005-0003-FD4000 Family                                            D-2005-099 Status of Selected
Care Plan Program (04/14/2005)                                       DoD Policies on Information
                                   INFORMATION                       Technology Governance
F-2005-0004-FD1000 Air             TECHNOLOGY                        (08/19/05)
Force Military Engineer
Shortages (04/27/2005)
                                   MANAGEMENT                        D-2005-104 Report on the
                                                                     Defense Business Management
F-2005-0004-FD4000                                                   System Controls Placed in
                                   DoD OIG
Academic Degrees (04/27/2005)                                        Operation and Tests of
                                   D-2005-054 Audit of the           Operating Effectiveness for the
F-2005-0005-FD4000 Career          Information Technology            Period October 1, 2004 through
Enlisted Flyer Incentive Pay       Security Certification and        May 15, 2005 (08/26/05)
(05/02/2005)                       Accreditation Process (FOR
                                   OFFICIAL USE ONLY)                D-2005-105 Report on the
F-2005-0006-FD4000                 (04/28/05)                        Defense Information Systems
Communications and                                                   Agency, Center for Computing
Information Personnel              D-2005-059 Report on Standard     Services Controls Placed in
(05/02/2005)                       Finance System Controls Placed    Operation and Tests of
                                   in Operation and Tests of         Operating Effectiveness for the
F-2005-0007-FD4000 Air             Operating Effectiveness for the   Period October 1, 2004 through
Force Human Capital                Period October 1, 2004 through    April 30, 2005 (09/06/05)
Performance Management             March 31, 2005 (04/30/05)
System (06/15/2005)



                                                 43
Appendix A                                             Semiannual Report for Transmission to Congress


D-2005-106 Report on Defense       N-2005-0049 Information            D-2005-091 Source Selection
Civilian Pay System Controls       Security Controls at Naval         Decisions for the Air Force
Placed in Operation and Tests of   Shipyards (07/07/05)               Small Diameter Bomb Program
Operating Effectiveness for the                                       (FOR OFFICIAL USE ONLY)
Period October 1, 2004 through     Air Force Audit Agency             (07/12/05)
June 30, 2005 (09/15/05)           F-2005-0003-FB4000 Network         D-2005-096 DoD Purchases
D-2005-110 Summary of              Infrastructure Equipment           Made Through the General
Information Security               (04/01/2005)                       Services Administration
Weaknesses Reported by Major       F-2005-0005-FB2000 Air             (07/29/05)
Oversight Organizations From       Force Implementation of
August 1, 2004, through July 31,                                      D-2005-098 Contract Award
                                   Electronic Business Process to     and Administration for the
2005 (FOR OFFICIAL USE             Manage and Purchase
ONLY) (09/23/05)                                                      Improved Navy Lighterage
                                   Information Technology             System (08/11/05)
                                   Products (04/27/2005)
Army Audit Agency
                                                                      Army Audit Agency
A-2005-0175-FFI Centralizing       F-2005-0005-FB4000
Common User Support (Single        Certification and Accreditation    A-2005-0149-ALA Earned
Directorate of Information         of Air Force Major Command         Value Management, Program
Management Concept), Dugway        Systems (07/11/2005)               Executive Office, Ground
Proving Ground, White Sands                                           Combat Systems and Program
Missile Range, and Yuma            F-2005-0006-FB4000 Air             Manager Office, Unit of Action
Proving Ground (06/14/05)          Force Implementation of the        (04/06/05)
                                   Federal Information Security
A-2005-0200-FFI                    Management Act (07/14/2005)        A-2005-0159-ALA Proposed
Headquarters, Department of the                                       Modifications to the Kalmar
Army Information Technology                                           Rough Terrain Container
Purchase Process (06/27/05)        ACQUISITION                        Handler (04/12/05)
                                   PROCESSES AND                      A-2005-0163-ALS Contract for
A-2005-0218-FFI Forces
Command Network Support            CONTRACT                           Logistics Services, U.S. Army
Contract, Headquarters, U.S.       MANAGEMENT                         Reserve Command, Fort
Army Forces Command                                                   McPherson, Georgia (04/20/05)
(08/04/05)
                                   DoD OIG                            A-2005-0160-ALA Integrated
A-2005-0242-FFI Human                                                 System Control, Fort
                                   D-2005-048 Acquisition of          Monmouth, New Jersey
Resources Command Personnel
                                   Targets at the Missile Defense     (04/22/05)
Information Technology
                                   Agency (4/6/05)
Systems (08/11/05)
                                                                      A-2005-0170-ALA Primary
                                   D-2005-055 DoD Purchase            (Non-Rechargeable)
A-2005-0266-FFE Followup
                                   Card Convenience Checks            Communications-Electronics
Audit of Hazardous Materials
                                   (5/3/05)                           Batteries, U.S. Army
Information System (08/26/05)
                                                                      Communications-Electronics
                                   D-2005-078 Audit of the
A-2005-0265-FFI Followup                                              Life Cycle Management
                                   Extended Range Guided
Audit of Selected Aspects of                                          Command (05/02/05)
                                   Munition Program (06/15/05)
Information Assurance--Fort
Knox, Kentucky (08/29/05)                                             A-2005-0176-ALA Contract
                                   D-2005-077 Accounting for
                                                                      Award Practices, U.S. Army
                                   Sperry Marine Pension Plan
Naval Audit Service                Assets Under an Advance
                                                                      Tank-Automotive and
                                                                      Armaments Command - Rock
N-2005-0038 Common Access          Agreement with Litton
                                                                      Island, Rock Island Arsenal,
Card Implementation (04/08/05)     Industries, Inc. (06/17/05)
                                                                      Illinois (05/02/05)




                                                  44
Semiannual Report for Transmission to Congress                                           Appendix A


A-2005-0194-ALA Program           A-2005-0271-ALA Followup           A-2005-0308-ALA Army
Management in Support of Iraq     Audit of High Mobility Artillery   Government Purchase Card
Reconstruction, Project and       Rocket System Program, Office      Program, Fort Stewart, Georgia
Contracting Office, Washington,   of the Product Manager             (09/21/05)
DC (05/26/05)                     (09/06/05)
                                                                     A-2005-0321-ALT Contract
A-2005-0208-ALA Earned            A-2005-0283-ALM Impact of          Administration for the Base
Value Management, Program         Warranties on Weapon System        Operations Support Contract,
Executive Office, Command,        Maintenance Costs, Program         U.S. Army Garrison, Picatinny
Control and Communications        Executive Office, Intelligence,    (09/27/05)
Tactical (06/22/05)               Electronic Warfare, and Sensors,
                                  Fort Monmouth, New Jersey          A-2005-0313-FFG Army
A-2005-0209-ALA Followup          (09/06/05)                         Government Travel Card-
Audit of the Army                                                    Individual Pay, U.S. Army
Transformation Experiment         A-2005-0267-ALA Followup           Forces Command (09/28/05)
2002 (06/23/05)                   Audit of The Army’s Purchase
                                  Card Program, Fort Eustis and      A-2005-0336-ALS Training
A-2005-0222-ALS Contract          Fort Monroe, Virginia              Resource Model Inputs
Offloading, U.S. Army Reserve     (09/08/05)                         Acquisition Contracting, U.S.
Command, Fort McPherson,                                             Army Aviation and Missile Life
Georgia (06/30/05)                A-2005-0290-ALW Followup           Cycle Management Command,
                                  of Audit Report A-2002-0491-       Redstone Arsenal, Alabama
A-2005-0171-FFP Government        AMW, Government Purchase           (09/30/05)
Purchase Card, Army               Cards, Tobyhanna Army Depot
Commands in Korea (07/06/05)      (09/08/05)                         Naval Audit Service
A-2005-0202-ALM Impact on         A-2005-0293-ALM Impact of          N-2005-0037 Air Navigation
Warranties on Weapon System       Warranties on Weapon System        Warfare Program (FOR
Maintenance Costs, Program        Maintenance Costs, Program         OFFICIAL USE ONLY)
Executive Office, Command         Executive Office, Combat           (04/05/05)
Control and Communications        Support and Combat Service
Tactical, Fort Monmouth, New                                         N-2005-0039 Space and Naval
                                  Support, Warren, Michigan          Warfare Systems Center New
Jersey (07/12/05)                 (09/09/05)                         Orleans (04/20/05)
A-2005-0234-ALT Validation        A-2005-0294-ALM Impact of
of Most Efficient Organization,                                      N-2005-0040 Resolution of
                                  Warranties on Weapon System        Critical Operational Issues
Fort Detrick, Maryland            Maintenance Costs, Program
(07/20/05)                                                           Identified During Operational
                                  Executive Office, Aviation,        Evaluations (04/20/05)
                                  Redstone Arsenal, Alabama
A-2005-0235-ALT Commercial        (09/12/05)
Activities Preaward Process                                          N-2005-0047 Deterring and
(07/21/05)                                                           Detecting Procurement Fraud in
                                  A-2005-0291-ALA Semi-              the Department of the Navy
                                  Trailer Taillight Commonality,     (06/24/05)
A-2005-0282-ALM Impact of         Office of the Product Manager,
Warranties on Weapon System       Trailers (09/15/05)
Maintenance Costs, Program                                           N-2005-0056 Earned Value
Executive Office, Missiles and                                       Management for the DDG 51
                                  A-2005-0296-ALT Contract           Arleigh Burke Class Destroyer
Space, Redstone Arsenal,          Administration for Contracts
Alabama (09/02/05)                                                   Program (FOR OFFICIAL USE
                                  Resulting from A-76                ONLY) (08/31/05)
                                  Commercial Activities Study
                                  Decisions (09/15/05)               N-2005-0060 Government
                                                                     Travel Card Program at Naval
                                                                     Sea Systems Command
                                                                     (09/21/05)



                                                 45
Appendix A                                         Semiannual Report for Transmission to Congress


Air Force Audit Agency                                            D-2005-074 Support for
                                FINANCIAL                         Reported Obligations for the
F-2005-0006-FC1000 Most                                           National Security Agency
Efficient Organization          MANAGEMENT
                                                                  (CLASSIFIED) (05/31/05)
Performance Reviews
(04/14/2005)                                                      D-2005-087 Departmental
                                DoD OIG
                                                                  Expenditure Reporting at
F-2005-0005-FC3000              D-2005-047 Contracts              Defense Finance and
Acquisition of Air Force        Classified as Unreconcilable by   Accounting Service Indianapolis
Materiel Command Medical        the Defense Finance and           (06/27/05)
Treatment Facility Operations   Accounting Service Columbus
and Equipment Maintenance       (Contract No. DAAA09-81-          D-2005-100 Identification and
Services (06/20/2005)           G2008/0031) (04/01/05)            Reporting of DoD Erroneous
                                                                  Payments (08/17/05)
F-2005-0004-FC3000 Combat       D-2005-051 Independent
Survivor Evader Locator         Examination of the Land Assets    D-2005-101 DoD Recovery
Program Acquisition             at the U.S. Army Corps of         Audit Program (08/17/05)
Management (06/23/2005)         Engineers, Civil Works
                                (04/06/05)                        D-2005-102 Defense
F-2005-0007-FC1000 Base                                           Departmental Reporting System
Operating Support, March ARB    D-2005-053 FY 2004                – Audited Financial Statements
CA (A-76 Cost Comparison)       Emergency Supplemental            Report Map (08/17/05)
(06/23/2005)                    Funding for the Defense
                                Information Systems Agency        D-2005-097 Report on the
F-2005-0008-FC1000 Air          (FOR OFFICIAL USE ONLY)           Auditability Assessment for the
Force Pentagon                  (04/29/05)                        Financial Statements of the
Communications Agency                                             Defense Intelligence Agency
(A-76 Direct Conversion)        D-2005-056 Reliability of the     (CLASSIFIED) (08/18/05)
(07/07/2005)                    FY 2004 Financial Statements
                                for the National Geospatial-      D-2005-103 Development and
F-2005-0009-FC1000 Space        Intelligence Agency               Management of the Army Game
and Missile Systems Center,     (CLASSIFIED) (04/29/05)           Project (08/24/05)
Education and Training
Services, Los Angeles AFB CA    D-2005-045 FY 2004                D-2005-108 Review of the U.S.
(A-76 Cost Comparison)          Emergency Supplemental            Army Corps of Engineers, Civil
(07/08/2005)                    Funding for the Defense           Works, Balance Sheet Reporting
                                Logistics Agency (FOR             and Financial Statement
F-2005-0007-FC3000 Airborne     OFFICIAL USE ONLY)                Compilation (09/16/05)
Integrated Terminal Group       (05/09/05)
Program (09/09/2005)                                              D-2005-112 Review of the
                                D-2005-065 Termination of the     Development of the DoD
F-2005-0008-FC3000              Audit of the DoD Midterm          Baseline for Military Equipment
Acquisition Management of the   Solution for Military Equipment   (09/30/05)
C-130J Program (09/28/2005)     Valuation (05/09/05)
                                                                  D-2005-113 Report on the
                                D-2005-061 Appropriations         Defense Departmental
                                Received and Net Transfers on     Reporting System and Related
                                the FY 2004 DoD Agency-Wide       Financial Statement
                                Financial Statements (05/10/05)   Compilation Process Controls
                                                                  Placed in Operation and Tests of
                                D-2005-062 Recording and          Operating Effectiveness for the
                                Accounting for DoD Contract       Period October 1, 2004 through
                                Financing Payments (05/10/05)     March 31, 2005 (09/23/05)




                                              46
Semiannual Report for Transmission to Congress                                             Appendix A


D-2005-114 Development of         A-2005-0157-FFG Review of           A-2005-0206-FFG Validation
the DoD Baseline for Military     the Army Management Control         of the Statement of
Equipment (09/30/05)              Process FY 04, McAlester Army       Accountability, Attestation of
                                  Ammunition Plant, U.S. Army         Disbursing Station Symbol
Army Audit Agency                 Field Support Command               Number 8551 (06/29/05)
A-2005-0134-FFG Review of         (04/15/05)
                                                                      A-2005-0215-FFH Financial
the Army Management Control       A-2005-0166-FFG Standard            Controls--Community Club
Process FY 04, Office of the      Procurement System, Financial       Operations, Fort Buchanan,
Chief of Chaplains,               Requirements (04/21/05)             Puerto Rico (06/30/05)
Headquarters, DA (04/04/05)
                                  A-2005-0019-FFG Validation          A-2005-0216-ALW Followup
A-2005-0151-FFG Review of         of Completed Tasks for              of Audit Report AA 00-399
the Army Management Control       Accounts Payable--Army Chief        Compilation of Selected Army
Process FY 04, Office of the      Financial Officers Strategic Plan   Working Capital Fund FY 99
Judge Advocate General            (04/28/05)                          Financial Statements (07/01/05)
(04/08/05)
                                  A-2005-0173-ALE                     A-2005-0217-ALW Followup
A-2005-0152-FFG Review of         Commanders Emergency                Audit of Workers
the Army Management Control       Response Program and Quick          Compensation, Army Working
Process FY 04, U.S. Army          Response Fund, Multi-National       Capital Fund, Office of the
Chemical Materials Agency,        Security Transition Command -       Deputy Assistant Chief of Staff,
Aberdeen Proving Ground,          Iraq (05/02/05)                     G-1 for Civilian Personnel
Maryland (04/08/05)                                                   Policy (07/01/05)
                                  A-2005-0179-FFG Review of
A-2005-0153-FFG Review of         the Army Management Control         A-2005-0228-ALW Followup
the Army Management Control       Process FY 04, An Assessment        Audit of Internal Controls Over
Process FY 04, U.S. Army          for the Secretary of the Army       Inventory, Office of the
Tank-Automotive & Armaments       (05/10/05)                          Administrative Assistant to the
Command, Warren, Michigan                                             Secretary of the Army
(04/08/05)                        A-2005-0180-ALT Financial           (07/01/05)
                                  and Accounting Operations,
A-2005-0154-FFG Review of         U.S. Property and Fiscal Office     A-2005-0001-FFG Secretary of
the Army Management Control       for Indiana (05/25/05)              Defense Executive Dining
Process FY 04, U.S. Army                                              Facility Fund Internal Controls
Materiel Command (04/12/05)       A-2005-0161-FFF Followup            (07/08/05)
                                  Audit of Funding of Aviation
A-2005-0080-FFG Office of         Training, U.S. Army Aviation        A-2005-0236-FFH Attestation
the Secretary of Defense/Joint    Center and Fort Rucker              Review of Morale, Welfare, and
Staff Welfare and Recreation      (05/26/05)                          Recreation Financial
Association Fund, Internal                                            Statements--Army
Controls (04/13/05)               A-2005-0196-FFH Financial           Nonappropriated Fund
                                  Controls Over Golf Course           Employee Retirement and
A-2005-0155-FFG Review of         Operations, Fort Campbell,
the Army Management Control                                           401(k) Savings Plans, U.S.
                                  Kentucky (06/10/05)                 Army Community and Family
Process FY 04, Office of the
Deputy Chief of Staff for                                             Support Center (07/18/05)
                                  A-2005-0185-FFG Followup
Logistics (G-4) (04/13/05)        Audit of U.S. Debit Card Pilot      A-2005-0201-FFG Sale and
                                  Program, U.S. Southern              Exchange Program, U.S. Army
A-2005-0156-FFG Review of         Command, Miami, Florida
the Army Management Control                                           Tank-Automotive and
                                  (06/21/05)                          Armaments Command
Process FY 04, Corpus Christi
Army Depot (04/15/05)                                                 (08/05/05)




                                                 47
Appendix A                                           Semiannual Report for Transmission to Congress


A-2005-0248-FFP Followup         A-2005-0289-FFG Review of           A-2005-0316-ALE Followup
Audit of Nonappropriated Fund    the Army Management Control         Audit of Nonappropriated Fund
Payroll for Local Nationals,     Process FY 05, Office of the        Payroll, U.S. Army Installation
Eighth U.S. Army, Seoul, Korea   Deputy Chief of Staff G-8           Management Agency, Europe
(08/18/05)                       (09/16/05)                          Region (09/22/05)
A-2005-0223-FFC Insurance        A-2005-0261-FFG Defense             A-2005-0320-FFG Integrated
Reserve Account, U. S. Army      Property Accountability System      Facilities System Requirements
Corps of Engineers (08/23/05)    Material Weakness Closeout,         Determination (09/27/05)
                                 Fort Belvoir, Virginia
A-2005-0258-FFF                  (09/19/05)                          A-2005-0326-FFG Defense
Management Controls Over                                             Property Accountability System
Civilian Payroll Funds, U.S.     A-2005-0277-FFG Defense             Material Weakness Closeout,
Military Entrance Processing     Property Accountability System      Corpus Christi, Texas
Command (08/26/05)               Material Weakness Closeout,         (09/28/05)
                                 Fort Stewart, Georgia (09/19/05)
A-2005-0272-ALS Followup                                             A-2005-0329-FFI Followup
Audit of the Recapitalization    A-2005-0278-FFG Warfighters'        Audit of Disbursements Without
Program Efficiency, Office of    Simulation and Joint Simulation     Obligations, U.S. Army
the Assistant Secretary of the   System Funding (09/20/05)           Acquisition, Logistics, and
Army (Acquisition, Logistics                                         Technology Enterprise Systems
and Technology) and Office of    A-2005-0292-FFG Army                and Services (09/29/05)
the Deputy Chief of Staff, G-8   Government Travel Card -
(08/31/05)                       Individual Pay, U.S. Army           A-2005-0332-ALE Followup
                                 Training and Doctrine               Audit of Commanders'
A-2005-0270-FFG Review of        Command (09/20/05)                  Emergency Response Program
the Army Management Control                                          and Quick Response Fund,
Process FY 05, Great Plains      A-2005-0310-ALW Followup            Multi-National Security
Regional Medical Command         Audit of Army Working Capital       Transition Command - Iraq
(09/07/05)                       Fund Recommendations, Office        (09/30/05)
                                 of the Assistant Secretary of the
A-2005-0286-FFG Review of        Army (Financial Management          Naval Audit Service
the Army Management Control      and Comptroller) (09/21/05)
Process FY 05, U.S. Army                                             N-2005-0043 Financial Reports
Veterinary Command, Fort Sam     A-2005-0309-ALW Followup            from Space and Naval Warfare
Houston (09/09/05)               of Audit Report AA 01-423           Systems San Diego (04/28/05)
                                 Compilation Process for the
A-2005-0287-FFG Review of        Fiscal Year 2000 Statement of       N-2005-0044 Customer Billing
the Army Management Control      Financing, Army Working             at Naval Facilities Engineering
Process FY 05, Headquarters,     Capital Fund (09/22/05)             Service Center, Port Hueneme,
North Atlantic Regional                                              CA (05/05/05)
Medical Command (09/09/05)       A-2005-0312-ALW Followup
                                 of Audit Report A-2002-0365-        N-2005-0048 Verification of the
A-2005-0295-FFI Followup         AMW Compilation of Army             Department of the Navy’s
Audit of Disbursements Without   Working Capital Fund Fiscal         Reporting of Depot
Obligations (09/13/05)           Year 2001 1307 Accounting           Maintenance Workload Between
                                 Report (09/22/05)                   Public and Private Sectors
A-2005-0288-FFG Review of                                            (06/30/05)
the Army Management Control      A-2005-0315-ALE Followup
Process FY 05, U.S. Army         Audit of Allocation of Army
Surface Deployment and           Lodging Fund Common
Distribution Command             Overhead Support Costs, 26th
(09/16/05)                       Area Support Group,
                                 Heidelberg, Germany (09/22/05)




                                                48
Semiannual Report for Transmission to Congress                                             Appendix A


N-2005-0050 Independent             F-2005-0004-FB2000                 F-2005-0014-FB1000 Your
Attestation Report on Agreed-       Comprehensive Engine               Guardians of Freedom
Upon Procedures Attestation         Management System Controls         (09/26/2005)
Engagement of Department of         (04/27/2005)
the Navy General Fund, Fiscal
Year 2004 Environmental             F-2005-0009-FB1000 Office of       HEALTH CARE
Liabilities Account (07/15/05)      Special Investigations
                                    Confidential Investigative
N-2005-0051 Internal Controls       Contingency Funds                  DoD OIG
Over Military Pay Advances and      (06/15/2005)
                                                                       D-2005-095 DoD Patient
Debts (07/22/05)
                                    F-2005-0010-FB1000 Air             Movement System (07/27/05)
N-2005-0053 Independent             Force Reserve Unliquidated
Attestation Report on Agreed-       Obligations (06/17/2005)           Army Audit Agency
Upon Procedures Attestation                                            A-2005-0328-FFI Followup
Engagement of Department of         F-2005-0008-FB2000                 Audit of the Discontinue
the Navy General Fund, Fiscal       Automated Civil Engineering        Research Process, Office of the
Year 2004 Other Liabilities         System - Operations Controls       Assistant Secretary of the Army
Account (08/08/05)                  (06/20/2005)                       (Financial Management and
                                                                       Comptroller) (09/29/05)
N-2005-0057 Department of the       F-2005-0011-FB1000 Global
Navy’s Fund Balance with            War on Terrorism Funds             Air Force Audit Agency
Treasury Account (Phase II)         Management (06/20/2005)
(09/02/05)                                                             F-2005-0004-FD2000 Clinical
                                    F-2005-0001-FB3000 Fund            Laboratories (04/01/2005)
N-2005-0059 Independent             Balance With Treasury for Air
Attestation Review of Financial     Force General and Working          F-2005-0005-FD2000 Third
Statements for the City of Tustin   Capital Funds (06/21/2005)         Party Collection Funds Usage
Local Redevelopment Authority                                          (07/06/2005)
No-Cost Economic                    F-2005-0006-FB2000
                                    Information Services Activity      F-2005-0006-FD2000 Physical
Development Conveyance
                                    Group Budget Process               Therapist Productivity
(09/15/05)
                                    (06/22/2005)                       (07/11/2005)
Air Force Audit Agency                                                 F-2005-0008-FD2000
                                    F-2005-0013-FB1000 Financial
F-2005-0006-FB1000 Air              Management Transformation          Deployment Health
National Guard Dual                 Initiatives (07/07/2005)           Assessments (09/20/2005)
Compensation (04/01/2005)
                                    F-2005-0006-FC3000 Air             F-2005-0009-FD2000 Medical
F-2005-0007-FB1000 Internal         Force Research Laboratory          Skill Level Upgrade Training
Controls Over Selected Aspects      Reimbursement Process              (09/26/2005)
of Air National Guard Financial     (08/08/2005)
Management (04/01/2005)
                                    F-2005-0010-FC1000 Foreign         LOGISTICS
F-2005-0008-FB1000 Initial          Military Sales Component
Funds Distribution Process          Improvement Program for the
(04/14/2005)                        F100-PW-229 Engine                 Army Audit Agency
                                    (08/08/2005)                       A-2005-0143-ALE
F-2005-0003-FB2000 Air
Force Financial Statements -                                           Implementation of the Bosnia
                                    F-2005-0010-FB2000 System
Reliability and Use of                                                 Restructure Plan, U.S. Army,
                                    Controls for Financial Inventory
Electronically Scanned Contract                                        Europe and Seventh Army
                                    Accounting and Billing System
Source Documents (04/27/2005)                                          (04/04/05)
                                    (09/20/2005)




                                                   49
Appendix A                                           Semiannual Report for Transmission to Congress


A-2005-0146-ALW                   A-2005-0197-ALE Asset             A-2005-0307-ALW Army
Management of Consigned           Visibility and Container          Workload and Performance
Inventory, Office of the          Management--Operation Iraqi       System, Workload Forecast,
Assistant Secretary of the Army   Freedom (07/05/05)                U.S. Army Materiel Command
(Financial Management and                                           (09/20/05)
Comptroller) and Office of the    A-2005-0221-ALE Surface
Deputy Chief of Staff, G-4        Transportation Management--       A-2005-0304-ALM
(04/08/05)                        Balkans, U.S. Army, Europe and    Sustainment Systems Technical
                                  Seventh Army (08/04/05)           Support, U.S. Army Tank-
A-2005-0168-ALE Theater                                             Automotive and Armaments
Distribution Capabilities--       A-2005-0237-ALW Project           Life Cycle Management
Operation Iraqi Freedom           Manager Assets - Aviation,        Command (09/21/05)
(04/26/05)                        Office of the Program Executive
                                  Officer, Aviation, Apache         A-2005-0305-ALM
A-2005-0172-ALE                   Attack Helicopter (08/09/05)      Sustainment Systems Technical
Functionality of Logistics                                          Support, U.S. Army Aviation
Automated Systems--Operation      A-2005-0238-ALW Project           and Missile Life Cycle
Iraqi Freedom (04/27/05)          Manager Assets - Aviation,        Management Command
                                  Office of the Program Executive   (09/26/05)
A-2005-0184-ALT Equipment         Officer, Aviation, Scout Attack
Maintenance, California Army      Helicopter (08/09/05)             A-2005-0306-ALM
National Guard (05/11/05)                                           Sustainment Systems Technical
                                  A-2005-0239-ALW Project           Support, Offices of the Assistant
A-2005-0177-ALS Internal          Manager Assets - Aviation,        Secretary of the Army
Controls Over Cargo Container     Office of the Program Executive   (Acquisition, Logistics and
Payments, Military Surface        Officer, Aviation, Cargo          Technology, Deputy Chief of
Deployment and Distribution       Helicopter (08/09/05)             Staff, G-4, and U.S. Army
Command (05/12/05)                                                  Materiel Command (09/28/05)
                                  A-2005-0240-ALW Project
A-2005-0182-ALS Rapid             Manager Assets - Aviation,        A-2005-0338-ALM Followup
Fielding Initiative               Office of the Program Executive   Audit on Specialized Repair
Accountability Procedures,        Officer, Aviation (08/09/05)      Authority, U.S. Army
Program Executive Office,                                           Communications-Electronics
Soldier, Fort Belvoir, Virginia   A-2005-0250-ALE Class IX          Life Cycle Management
(05/12/05)                        Spare Parts--Operation Iraqi      Command, Fort Monmouth,
                                  Freedom (08/15/05)                New Jersey (09/30/05)
A-2005-0186-ALE Followup
Audit of the General Support      A-2005-0260-FFE Followup          Air Force Audit Agency
Maintenance Program, U.S.         Audit of Transportation Motor
Army, Europe and Seventh          Pool, Fort Hood, Texas            F-2005-0004-FC2000 Follow-
Army (05/12/05)                   (08/22/05)                        up Audit, Depot Paint and
                                                                    Depaint Operations
A-2005-0210-ALM Followup          A-2005-0273-ALW Audit of          (04/28/2005)
Audit of the U.S. Army Aviation   Product Manager Office, Heavy
Hydraulic Contamination           Expanded Mobility Tactical        F-2005-0005-FC2000 Follow-
Control Program, Redstone         Truck (08/29/05)                  up Audit, Prepositioned Aircraft
Arsenal, Huntsville, Alabama                                        Fuel Drop Tanks (04/28/2005)
(07/01/05)                        A-2005-0275-ALM
                                  Maintenance Support to Combat     F-2005-0006-FC2000 C/KC-
A-2005-0213-ALM Followup          Units, Fort Hood, Texas           135 Global Air Traffic
Audit of the Army Oil Analysis    (09/01/05)                        Management Modification
Program, Redstone Arsenal,                                          (06/14/2005)
Huntsville, Alabama (07/01/05)




                                                50
Semiannual Report for Transmission to Congress                                           Appendix A


F-2005-0006-FC4000 Mission          A-2005-0249-ALO Garrison         A-2005-0284-FFC Operation
Direct Additive Requirements        Utilities and Energy Services,   and Maintenance and
(07/11/2005)                        Fort Leonard Wood, Missouri      Maintenance Backlog, U.S.
                                    (08/08/05)                       Army Corps of Engineers, Rock
F-2005-0007-FC4000 Cargo                                             Island District (09/20/05)
Processing (07/14/2005)             A-2005-0251-FFE Followup
                                    Audit of Disposal Actions at     A-2005-0311-ALO Followup
F-2005-0007-FC2000 Disposal         Formerly Utilized Sites, U.S.    Audit of Recommendations in
of Inactive Engines and             Army Corps of Engineers          Audit Report AA 02-098, U.S.
Associated Aircraft                 (08/08/05)                       Army Garrison, Fort Bragg; Fort
(09/01/2005)                                                         Bragg, North Carolina
                                    A-2005-0256-FFE Validation       (09/20/05)
F-2005-0011-FC1000 KC-              of Material Weakness for
135E Special Assessment             Unexploded Ordnance              A-2005-0317-FFE Followup
(09/08/2005)                        (08/19/05)                       Audit of Management of
                                                                     Chemical Stockpile Sites, U.S.
                                    A-2005-0257-FFE Followup         Army Chemical Materials
INFRASTRUCTURE                      Audit of Chemical and            Agency (09/23/05)
AND ENVIRONMENT                     Biological Support for Forward
                                    Stationed DA Civilians and       A-2005-0318-FFE Followup
                                    Contractors (08/19/05)           Audit of Administering Service
Army Audit Agency                                                    Contracts, III Corps and Fort
                                    A-2005-0262-FFE Followup         Hood, Texas (09/23/05)
A-2005-0147-ALO Garrison            Audit of the Army Forestry
Utilities and Energy Services,      Program (08/25/05)               A-2005-0324-FFC Operations
Fort Stewart and Hunter Army                                         and Maintenance Backlog, U.S.
Airfield, Georgia (04/07/05)        A-2005-0263-FFE Followup         Army Engineer District, Tulsa
                                    Audit of Hazardous Waste         (09/29/05)
A-2005-0181-FFP Followup on         Disposal Volumes and Costs
the Audit of Space Utilization of   (08/25/05)                       A-2005-0333-ALO Barracks
Storage and Warehouse                                                Sustainment, Restoration, and
Facilities, U.S. Army Garrison,     A-2005-0269-ALO Barracks         Modernization, U.S. Army
Hawaii (05/10/05)                   Sustainment, Restoration, and    Garrison, Fort Leonard Wood,
                                    Modernization, U.S. Army         Missouri (09/30/05)
A-2005-0188-ALO Military            Garrison Fort Eustis, Virginia
Construction Process (05/19/05)     (08/31/05)                       A-2005-0334-FFE Motor
                                                                     Vehicle and Occupational
A-2005-0192-ALO Army                A-2005-0280-FFE Followup         Health Safety Programs
Stationing and Installation Plan,   Audit of Projected Supply and    (09/30/05)
Fort Hood, Texas (05/20/05)         Use of Halon 1301 (09/02/05)
                                                                     Naval Audit Service
A-2005-0229-ALW Followup            A-2005-0281-FFE Followup
on Recommendations 3 and 4          Audit of Execution of            N-2005-0045 Management of
Audit Report A-2003-0450-           Environmental Projects           Naval Air Station, Sigonella
AMW, Anniston Army Depot            (09/02/05)                       Housing Department (06/08/05)
(07/15/05)
                                    A-2005-0297-FFE Followup         Air Force Audit Agency
A-2005-0247-FFE, Land Use           Audit of Overhead, and General   F-2005-0006-FD1000
Controls and Monitoring at          and Administrative Costs on      Qualified Recycling Program
Formerly Used Defense Sites,        Environmental Subcontracts,      (09/08/2005)
U.S. Army Corps of Engineers        U.S. Army Corps of Engineers
Louisville District (08/03/05)      Baltimore District (09/13/05)




                                                   51
Appendix A                                           Semiannual Report for Transmission to Congress


                                  D-2005-068 Defense Legal          D-2005-075 Defense Finance
BASE REALIGNMENT                  Services Agency Data Call         and Accounting Service Data
AND CLOSURE                       Submissions and Internal          Call Submissions and Internal
                                  Control Processes for Base        Control Processes for Base
                                  Realignment and Closure 2005      Realignment and Closure 2005
DoD OIG                           (05/09/05)                        (05/27/05)
D-2005-049 Joint Chiefs of        D-2005-070 Defense                D-2005-076 Defense Human
Staff Data Call Submissions and   Information Systems Agency        Resource Activity’s Data Call
Internal Control Processes for    Data Call Submissions and         Submissions and Internal
Base Realignment and Closure      Internal Control Processes for    Control Processes for Base
2005 (04/13/05)                   Base Realignment and Closure      Realignment and Closure
                                  (BRAC) 2005 (05/10/05)            (BRAC) 2005 (05/31/05)
D-2005-050 American Forces
Information Service’s Data Call   D-2005-071 Defense Security       D-2005-081 Supply and Storage
Submissions and Internal          Cooperation Agency’s Data Call    Joint Cross-Service Group Data
Control Processes for Base        Submissions and Internal          Integrity and Internal Control
Realignment and Closure 2005      Control Processes for Base        Processes for Base Realignment
(04/13/05)                        Realignment and Closure 2005      and Closure 2005 (06/06/05)
                                  (05/10/05)
D-2005-052 TRICARE                                                  D-2005-082 Industrial Joint
Management Activity Data Call     D-2005-072 Defense Threat         Cross-Service Group Data
Submissions and Internal          Reduction Agency’s Data Call      Integrity and Internal Control
Control Processes for Base        Submissions and Internal          Processes for Base Realignment
Realignment and Closure 2005      Control Processes for Base        and Closure 2005 (06/09/05)
(04/21/05)                        Realignment and Closure 2005
                                  (05/10/05)                        D-2005-084 Education and
D-2005-058 Defense Advanced                                         Training Joint Cross-Service
Research Projects Agency’s        D-2005-057 Office of              Group Data Integrity and
Data Call Submissions and         Economic Adjustment Data Call     Internal Control Processes for
Internal Control Processes for    Submission and Internal Control   Base Realignment and Closure
Base Realignment and Closure      Processes for Base Realignment    2005 (06/10/05)
2005 (05/06/05)                   and Closure 2005 (05/11/05)
                                                                    D-2005-086 Technical Joint
D-2005-060 Defense Security       D-2005-073 Department of          Cross-Service Group Data
Service’s Data Call Submissions   Defense Education Activity        Integrity and Internal Control
and Internal Control Processes    Data Call Submissions and         Processes for Base Realignment
for Base Realignment and          Internal Control Processes for    and Closure 2005 (06/17/05)
Closure 2005 (05/06/05)           Base Realignment and Closure
                                  2005 (05/12/05)                   D-2005-088 Defense Logistics
D-2005-063 Missile Defense                                          Agency Data Call Submissions
Agency Data Call Submissions      D-2005-066 Defense                and Internal Control Processes
and Internal Control Processes    Technology Security               for Base Realignment and
for Base Realignment and          Administration Data Call          Closure 2005 (06/27/05)
Closure 2005 (05/10/05)           Submissions and Internal
                                  Control Processes for Base        D-2005-089 Medical Joint
D-2005-064 Defense Contract       Realignment and Closure 2005      Cross-Service Group Data
Management Agency Data Call       (05/20/05)                        Integrity and Internal Control
Submissions and Internal                                            Processes for Base Realignment
Control Processes for Base        D-2005-067 Defense Contract       and Closure 2005 (07/07/05)
Realignment and Closure 2005      Audit Agency Data Call
(05/06/05)                        Submissions and Internal
                                  Control Processes for Base
                                  Realignment and Closure 2005
                                  (05/27/05)


                                                52
Semiannual Report for Transmission to Congress                                          Appendix A


D-2005-079 Washington             N-2005-0046 The Department
Headquarters Services Data Call   of the Navy’s Implementation of   OTHER
Submissions and Internal          the FY 2005 Base Realignment
Control Processes for Base        and Closure Process (06/10/05)
Realignment and Closure 2005                                        DoD OIG
(07/08/05)                        Air Force Audit Agency            D-2005-107 Controls Over
                                  F-2005-0004-FB4000 2005           Joint Strike Fighter (JSF)
D-2005-080 Office of the
                                  Base Realignment and Closure -    Technology (FOR OFFICIAL
Secretary of Defense, Director
                                  Installation Visualization Tool   USE ONLY) (09/30/05)
of Administration and
Management Data Call              Data Reliability (06/16/2005)
                                                                    Naval Audit Service
Submissions and Internal          F-2005-0007-FB2000 BRAC
Control Processes for Base                                          N-2005-0058 Naval Audit
                                  Cueing and Analysis Tools
Realignment and Closure 2005                                        Service Opinion on Proposed
                                  (06/22/2005)
(07/08/05)                                                          Fiscal Year 2005 Statement of
                                  F-2005-0009-FB2000 BRAC           Assurance (FOR OFFICIAL
D-2005-090 Headquarters and       Facility Analysis Capability      USE ONLY (09/14/05)
Support Activities Joint Cross-   Tool (08/08/2005)
Service Group Data Integrity                                        N-2005-0061 Opinion Letter -
and Internal Control Processes    F-2005-0005-FD1000 Quick          Peer Review of the Air Force
for Base Realignment and          Reaction Report of Audit, Base    Audit Agency (09/23/05)
Closure 2005 (07/15/05)           Realignment and Closure
                                                                    N-2005-0062 Letter of
                                  Disposition Planning
Naval Audit Service                                                 Comments - Peer Review of the
                                  (09/21/2005)
                                                                    Air Force Audit Agency
N-2005-0042 Risk Assessment                                         (09/23/05)
of the Department of the Navy     F-2005-0007-FB4000 2005
Base Realignment and Closure      Base Realignment and Closure -
2005 Information Transfer         Joint Action Scenario Team
System (04/25/05)                 Data Collection (09/27/2005)




                                                 53
          Appendix B                                                 Semiannual Report for Transmission to Congress



                                              APPENDIX B*
                               DOD OIG AUDIT REPORTS ISSUED CONTAINING
                              QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                                        Potential Monetary Benefits
                          Audit Reports Issued                                         Disallowed       Funds Put to
                                                                                         Costs            Better Use
 There were no DoD OIG audit reports claiming Potential                                   N/A                N/A
 Monetary Benefits issued during the reporting period.

 Totals




* Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(6)
(See Appendix A).




                                                                54
Semiannual Report for Transmission to Congress                                                     Appendix C


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES



         DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
             RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                ($ in thousands)

                                                                                                 Funds Put
                                   Status                                         Number          to Better
                                                                                                    Use1
 A. For which no management decision had been made by the                               20         $95,600
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                      70                0
      Subtotals (A+B)                                                                   90          95,600
 C. For which a management decision was made during the reporting                       68          95,600
         period.
      (i)    dollar value of recommendations that were agreed to by
             management
             - based on proposed management action                                                  95,600
             - based on proposed legislative action
      (ii)   dollar value of recommendations that were not agreed to by
             management
 D. For which no management decision has been made by the end of                        22                0
         the reporting period.

      Reports for which no management decision was made within 6
            months of issue (as of September 30, 2005).                                 32                0
 1There
        were no OIG DoD audit reports issued during the period involving “questioned costs.”
 2 OIG DoD Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,” issued        March
  29, 2004, had no management decision as of September 30, 2005. Action to achieve a decision is on hold
  pending a Secretary of Defense decision on recapitalization of the tanker program. OIG DoD Report No. D-
  2005-025, “Dod FY 2004 Implementation of the Federal Information Security Management Act for
  Information Technology Training and Awareness,” December 14, 2004; and OIG DoD Report No.              D-
  2005-029, “Management of Information Technology Resources within DoD,” January 27, 2005, also had no
  management decision as of September 30, 2005.
*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                       55
Appendix D                                                     Semiannual Report for Transmission to Congress

                                            APPENDIX D
                             CONTRACT AUDIT REPORTS ISSUED1
                                           ($ in millions)
                            April 1, 2005 through September 30, 2005



                                    Reports             Amounts              Questioned          Funds Put to
     Type of Audit2
                                    Issued              Examined               Costs3             Better Use
 Incurred Costs, Ops                    14,807             $77,934.3             $1,196.3               $364.24
 Audits, Special Audits
 Forward Pricing                          5,169            $81,805.1                     --           $3,561.85
 Proposals
 Cost Accounting                          1,349               $1,099.7              $84.2                      --
 Standards
 Defective Pricing                          387               (Note 6)              $27.3                      --
 Totals                                 21,712            $160,839.1             $1,307.8                $3,926
 1This
        schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
  6 months ended September 30, 2005. Both “Questioned Costs” and “Funds Put to Better Use” represent
  potential cost savings. Because of limited time between availability of management information system data
  and legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of
  reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
 2This schedule represents audits performed by DCAA summarized into four principal categories, which are

  defined as:
       Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that the
  costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense
  Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost audits are
  Operations Audits, which evaluate a contractor’s operations and management practices to identify
  opportunities for increased efficiency and economy; and Special Audits, which include audits of terminations
  and claims.
         Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
  contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
  by definitized contracts.
        Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes to
  disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
  noncompliance with a CAS regulation.
       Defective Pricing - A review to determine whether contracts are based on current, complete, and accurate
  cost or pricing data (the Truth in Negotiations Act).
 3
  Questioned costs represent costs that DCAA has questioned because they do not comply with rules,
  regulations, laws, and/or contractual terms.
 4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

  that funds could be used more effectively if management took action to implement cost reduction
  recommendations.
 5Represents potential cost reductions that may be realized during contract negotiations.
 6Defective pricing dollars examined are not reported because the original value was included in the audits

  associated with the original forward pricing proposals.




                                                         56
Semiannual Report for Transmission to Congress                                                             Appendix E


                                  APPENDIX E
       STATUS OF ACTION ON SIGNIFICANT POST-AWARD CONTRACT AUDITS1
                                 ($ in millions)
                       Period ending September 30, 2005



                                   Number of                  Costs
                                    Reports                 Questioned                  Disallowed Costs6

Open Reports:

     Within Guidelines2                540                     $1,087.0                          N/A7
     Overage, greater than 6           416                     $1,118.5                          N/A
     months3
     Overage, greater than             255                     $725.6                            N/A
     12 months4

     In Litigation5                     84                     $1,835.1                          N/A

Total Open Reports                    1,295                    $4,766.2                          N/A
Closed Reports                         391                     $844.6                     $176.7 (20.92%)
All Reports                           1,686                    $5,610.8                          N/A
 1
  This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
  equitable adjustments, accounting and related internal control systems, and noncompliance with the Cost
  Accounting Standards as reported by the Army, Navy, Air Force, Defense Contract Management Agency, and
  TRICARE. Contract audit followup is reported in accordance with DoD Directive 7640.2, “Policy for Followup on
  Contract Audit Reports.” Because of limited time between availability of the data and reporting requirements, there
  is minimal opportunity to verify the accuracy of the reported data.
 2These reports are being processed within the time frames established by OMB Circular A-50, “Audit Follow-up,”

  and DoD Directive 7640.2 as described in footnotes 3 and 4 below.
 3
   OMB Circular A-50 requires that audit reports be resolved (the contracting officer decides on a course of action)
  within 6 months after report issuance.
 4
   DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of
  issuance. Disposition is achieved when the contractor implements audit recommendations, the contracting officer
  negotiates a settlement with contractor, the contracting officer issues a final decision pursuant to the Disputes
  Clause, or the report is superseded.
 5
   Of the 84 reports in litigation, 5 are under criminal investigation.
 6
   Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
 7N/A (not applicable)




                                                          57
                                                    Semiannual Report for Transmission to Congress




              Waivers of Advisory and Assistance Service Contracts

A review is made of each waiver granted by the Department for advisory and assistance
services contracts related to testing support. This review is required by Section 802, Defense
Authorization Act for Fiscal Year 1990.

The Department made no waivers during the period and therefore, no reviews were made by
the OIG.




                                               58
